     THE UTILIZATION AND QUALITY

      CONTROL PEER REVIEW

   ORGANIZATION (PRO) PROGRAM

                  QUALJTY   REVIEW ACTIVITIES




 '1
  ,.1' SuvrC"I"




l.
OFFICE OF JNSPECTOR GENERAL
OFFCE OF ANALYSIS AND INSPECIONS
                                                AUGUST 198.
                THE UTILIZATION AND QUALITY CONTROL

              PEER REVIEW ORGANIZATION (PRO) PROGRA:

                       QUALITY REVIEW ACTIVITIES





RICHAD P.   KUSSEROW
INSPECTOR GENERAL
                                     AUGUST 1988
CONTROL # OAI-Ol-88-00570

                         . ..                ..            .. .

                        TABLE OF CONTENTS

EXECUTIVE SUMRY
INTRODUCTION

BACKGROUND OF THE PRO PROGRA
     Creation of the PRO Proqram

     First Scope of Work

     Second Scope of Work

     COBRA and OBRA Provisions

     Visibility and Vulnerabilitv of the PRO Proqram

     Administration and Oversiqht of the PRO Proqram

     The PROs' Ouali ty Review and Intervention Procedures

     The Sanction Process

FINDINGS. . 

     Respondents considered quality review to be the most

     cri tical element of the PROs mission and thouqht that
     it has received increased focus durinq the second

     contract period (1986-1988)
     Generic quality screens appear to be useful instruments

     for quali tv review. but may be in need of refinement


     The PROs I quali ty review efforts are limited by a   lack
     of consensus reqardinq the definition of quality medical

     care. by the amount of resources available for such care.
     and by the current lack of sophisticated technoloqy to

     assess quali tv
     The PROs have qreat variations in their approaches to

     and outcomes of quality review

     The PROs I impact on ensurinq hiqh quality care would be

     enhanced by qreater coordination with other health care

     enti ties. particularlY with the State medical licensure

     boards.                       0 . 

     Most PROs are findinq it difficult to provide effective

     outreach to Medicare beneficiaries. .

     The PROs will face serious challenqes and obstacles in

     reviewinq care in nonhospi tal settinqs



RECOMMENDATIONS
                       .. ..


APPENDIX I
     ENDNOTES

APPENDIX II
     BACKGROUND OF THE PRO INSPECTION.
APPENDIX III
     METHODOLOGICAL NOTES.

APPENDIX IV
     SUMY OF PRO-RELATED STUDIES.
APPENDIX V
     THE PROS WITH MORE THA ONE CONTRACT.
APPENDIX VI
     COMPARISON OF 1984 SCOPE OF WORK TO 1986
       SCOPE OF WORK

APPENDIX VII
     SANCTION PROCEDURES FOR CASES OF GROSS AND FLAGRANT

       AND SUBSTANTIAL NUBER OF SUBSTANTIAL VIOLATIONS
APPENDIX VIII
     SUMY OF    RECENT PRO-RELATED
       LEGISLATIVE PROVISIONS

APPENDIX IX
     MEMORABLE "PRO-ISMS"            8 .

APPENDIX X
     TABLE OF GENERIC QUALITY SCREENS: PERCENT OF FAILURES
       AND CONFIRMED PROBLEMS (1986-1987) BY SCREEN AND

       CASE STUDY SITE
APPENDIX XI
     HCFA. ASPE. AAP AND AHA COMMNTS ON THE DRAFT REPORT
       AND OIG RESPONSES TO THE COMMENTS. . 

                                   EXECUTIVE SUMRY

PURPOSE AND OBJECTIVES:
The purpose of this inspection was to assess the performance of

the Utilization and Quality Control Peer Review Organization

(PRO) program and to promote a better understanding of the PROs

mission and activities. Because of the major importance of the

PROs' quality assuranc activities to the integrity of the

Medicare program, the inspection has paid particular attention to

the processes by which the 
 ROs identify and address quality of

care issues , including their education and sanction        activities.
BACKGROUND:

The inspection grew out of the Inspector General' s desire to

obtain a broad perspective on the PROs' performance during their

second contract period (1986-1988). To that end, we pursued

three primary lines of inquiry: 1) interviews with 211 in­
dividuals associated with the PRO program, including all the PRO

chief executive officers (CEOs) and representatives of other

Government, provider, and consumer groups associated with the

PROs, 2) site visits to 12 PROs selected for case study, and 

review of pertinent literature 
nd data bases.

FINDINGS:
            RESPONDENTS CONSIDERED QUALITY REVIEW TO BE THE MOST

            CRITICAL ELEMENT OF THE PROS' MISSION AND THOUGHT IT HAS

            RECEIVED INCREASED EMPHASIS DURING THE SECOND CONTRACT

            PERIOD (1986-1988).
            GENERIC QUALITY SCREENS APPEAR TO BE USEFUL INSTRUMNTS FOR
            QUALITY REVIEW , BUT MAY BE IN NEED OF REFINEMENT. Screens
            provide the PRO program with national quality review

            procedures, but they have produced excessive referrals to

            physician advisers and may be inconsistently applied.
            THE PROS' QUALITY REVIEW EFFORTS AR LIMITED BY A LACK OF
            CONSENSUS REGARDING THE DEFINITION OF QUALITY MEDICAL CAR,
            BY THE AMOUNT' OF . RESOURCES AVAILABLE FOR SUCH CAR, AND BY
            THE       CUNT
                         LACK OF SOPHISTI.CATED TECHNOLOGY TO ASSESS
            QUALITY.
            THE PROS EXHIBIT GREAT VARIATION IN THEIR APPROACHES TO AND

            OUTCOMES OF QUADITY REVIEW. Some PROs identify many quality
            of care problems ' using the generic quality screens while
            others identify !few , if any problems. The quality review

            processes among the 12 case study PROs showed variations in

            both the identification and the treatment of physicians and

            providers with quality of care problems.
     THE PROS I IMPACT ON ENSURING HIGH-QUALITY    CAR WOULD BE
     ENHACED BY GREATER COORDINATION WITH OTHER HEALTH CAR
     ENTITIES, PARTICULALY WITH THE STATE MEDICAL LICENSUR
     BOARDS. The sharing of important information has been
     limited by the PROs' confusion about their confidentiality

     restrictions under the Social Security Act and HCFA '

     failure to require PROs to report physician misconduct or

     incompetence to State Medical Boards.
    MOST PROS AR FINDING IT DIFFICULT TO PROVIDE EFFECTIVE
    OUTREACH TO MEDICARE BENEFICIARIES. Al though most PROs
    viewed themselves as reasonably effective in this area,
    other national and local representatives were generally

    unaware of the PROs' outreach activities.

     THE PROS WILL FACE SERIOUS CHALLENGES AND OBSTACLES IN

     REVIEWING CAR IN NONHOSPITAL SETTINGS. In addition to the

    normal learning curve, respondents anticipated that the PROs

    will face problems concerning adequate funding, guidance,

    data sources 1 review technology, coordination with skilled

    nursing facilitie' (SNFs) and home health agencies (HHs),
    as well as resistance from the medical community.

                         RECOMMNDATIONS

QUALITY OF CARE

     THE HCFA SHOULD:

     WORK WITH THE PROS TO DEVELOP MORE CONSISTENT APPROACHES TO

     DEFINING AND ADDRESS ING QUALITY OF  CA   PROBLEMS



     WORK WITH THE PROS TO ENSUR MORE CONSISTENT REPORTING OF
     QUALITY INTERVENTION ACTIVITIES;

     DEVELOP AND WIDELY DISSEMINATE INFORMTION ON THE FULL RAGE
     OF EDUCATIONAL CORRECTIVE ACTIONS BEING TAKN BY THE PROS TO
     ADDRESS QUALITY OF CAR PROBLEMS;
     CREATE MORE OPPORTUNITIES FOR THE PROS TO     SHA
                                                     INFORMTION
     WITH EACH OTHER CONCERNING THEIR QUALITY REVIEW AND

     INTERVENTION APPROACHES; and

     INTENSIFY ITS SUPPORT OF RESEARCH TO DEFINE AND ASSESS THE

     QUALITY OF MEDICAL CAR. IN ADDITION, HCFA SHOULD COLLECT

     AND INTEGRATE QUALITY-RELATED RESEARCH FINDINGS FROM ALL

     RELEVANT SOURCES AND DISSEMINATE THEM TO THE PROS.
GENERIC OUALITY SCREENS


     THE HCFA SHOULD:


     ENSUR THAT ANY MAOR MODIFICATIONS TO THE GENERIC QUALITY
     SCREENS ARE PILOT-TESTED BEFORE NATIONAL IMPLEMENTATION;

     PROMOTE GREATER CONSISTENCY IN THE APPLICATION OF GENERIC

     SCREENS THROUGH ITS TRAINING EFFORTS AND OPERATIONAL

     INSTRUCTIONS; AND

     SUPPORT THE DEVELOPMENT AND PILOT TESTING OF MORE EFFECTIVE

     AND LESS LABOR-INTENSIVE REVIEW METHODOLOGIES.

PROS I COORDINATION WITH OTHER ENTITIES:


     THE HCFA SHOULD PROMOTE CLOSER WORKING RELATIONSHIPS BETWEN
     THE PROS AND OTHER HEALTH CAR ENTITIES AND ENCOURAGE MORE

     SHANG OF INFORMTION ABOUT PHYSICIANS AND PROVIDERS WITH
     QUALTY OF CAR PROBLEMS. THESE EFFORTS SHOULD INCLUDE
     CLAFICATION BY HCFA OF THE PROS I CONFIDENTIALITY
     RESTRICTIONS AND A REGULATORY REQUIREMENT THT PROS REPORT
     INSTANCES OF PHYSICIAN MISCONDUCT OR INCOMPETENCE TO STATE

     MEDICAL LICENSUR BOARDS. THIS REPORTING REQUIREMENT WAS
     AGREED TO BY HCFA IN MACH 1986 IN A BRIEFING ON THE OIG
     REPORT, "MEDICAL LICENSURE AND DISCIPLINE: AN OVERVIEW.

     THIS SHOULD BE ACCOMPLISHED THROUGH THE NOTICE OF PROPOSED

     RULEKING (NPRM) ON CHAGES TO PEER REVIEW ORGANIZATION
     REGULTIONS.
PROS' OUTREACH , TO MEDICARE BENEFICIARIES

     THE HCFA SHOULD SEEK WAYS TO STRENGTHEN THE BENEFICIARY

     OUTRE CH EFFORTS OF THE PROS. IN THIS CONTEXT / IT SHOULD
     COORDINATE MORE CLOSELY WITH THE SOCIAL SECUITY
     ADMINISTRATION AND THE OFFICE OF   HU  DEVELOPMENT SERVICES
     AND SHOULD PROVIDE MORE OPPORTUITIES FOR THE PROS TO SHAE
     BEST PRACTICE APPROACHES WITH EACH OTHER.
REVIEW OF CARE IN NONHOSPITAL SETTINGS


     THE HCFA SHOULD:


     WORK WITH THE PROS TO DELINEATE THE MOST SIGNIFICANT

     CONSTRAINTS THAT WILL BE ' FACED IN REVIEWING. CAR IN
     NONHOSPITAL SETTINGS AND TO DEVELOP STRATEGIES FOR

     ADDRESSING THESE CONSTRAINTS; AND
     SEEK WAYS TO IMPROVE THE AVAILABILITY OF DATA ON OUTPATIENT

     AND INPATIENT SERVICES PROVIDED TO THE MEDICAR POPULATION.
     IN THIS CONTEXT, IT SHOULD BUILD UPON DEMONSTRATION PROJECTS

     CURRNTLY UNDERWAY IN TEXAS AND MAYLAD TO LINK THE
     MEDICAR PART A (INPATIENT) AND PART B (OUTPATIENT) DATA
     FILES.
                                iii

COMMNTS ON DRAFT REPORT
We received written comments from the Health Care Financing

Administration, the Assistant Secretary for Planning and

Evaluation, the American Association of Retired Persons and the

American Hospital Association. All four entities reflected

positive reactions to our recommendations but AH raised some
important methodological considerations which led us to modify

two of our findings. In addition, HCFA and ASPE highlighted

several steps that HCfA is planning to undertake in the third

scope of work to address several of the concerns raised in our

report.  See appendix XI for a complete summary of the
aforementioned comments , and our response to them.
                             INTRODUCTION


The Office of Inspector General (OIG) has recently completed an

inspection of the utilization and Quality Control Peer Review

Organization (PRO) program. The primary purpose of this broad-
based study was to assess PRO performance and to promote a better

understanding of the PROs' mission and activities. To that end,

the study focused on the following factors:
     o the implications of the changes in the PROs' scope of work

       from the first to second contract period:

     o the maj or differences in perception among the PROs and

       other entities (e. g. ,   heal th,   providers, consumers,
       Government officials,     public , interest
                  1 mission and performance:         advocates) regarding
       the PROs

     o the significant variations that exist among PROs in

       carrying out their scope of work responsibilities:

     o the PRO practices that appeared to be exemp lary: and

     o the potential weaknesses or vulnerabilities of the

       program
(See appendix II for a more detailed explanation of the back­

ground for this inspection.

In the course of this OIG inspection of PRO performance, we

conducted in-depth interviews with a wide range of individuals

associated with the PRO program, including all PRO chief execu­

tive officers (CEOs), and a sample of other PRO staff, as well as

national and local external entities. We         visited
                                                   12 of the 44
PROs who are conducting reviews in the 54 PRO jurisdictions:
California, Colorado, Florida , Georgia, Indiana, Iowa,
Massachusetts , New York, Oregon, Rhode Island, Texas, and West
Virginia (for the Delaware PRO area). We created a computer file
to store and sort information gathered from our         interviews.
addi tion to this primary data, we collected and analyzed PRO-
related performance data from HCFA and other         entities.
                                                          (See
appendix III for a more detailed' description of our methodology.
Because the PROs' quality assurance activities are of major

importance to the integri.ty of the Medicare program, this
inspection has paid particular attention to the processes by

which the PROs identify and address quality of care issues.
This report summarizes the OIG' s inspection findings related to

the PROs' quality review activities. It is the first in a series

of reports on the OIG t S inspecton of the PRO program. The second
report will focus on the PROs' sanction activities and the third

and final report will offer an explanation of the overall

effectiveness of the PRO program. That report will focus on an
assessment of both the PROs themselves and HCFA' s oversight of
them. It is important to note that our assessment of the PRO

program is based primarily on interviews with a wide variety of

well-informed individuals closely associated ' with the PROs and
HCFA. ' Wherever possible , we have supplemented our analyses of
the qualitative data with available quantitative data.


                                             BACKGROUND OF THE PRO PROGRA
Creation of the PRO Proqram


The Utilization and Quality Control Peer Review Organization

(PRO) program was created by the Peer Review Improvement Act 

1982, Title I, Subtitle C of the Tax Equity and Fiscal Respon­

sibility Act of 1982, Public Law 97-248.

Peer Review Organizations succeeded Professional Standards Review

Organizations (PSROs)  in the provision of Medicare peer review.
The PSRO program had been established by Congress 
     Part B of           (in

Ti tIe XI of the Social Security Act) in 1972 to ensure that
heal th care services provided under the Medicare , the Medicaid

and the Maternal and Child Health and Crippled Children'
programs were " medically necessary, conformed to appropriate
professional standards, and were delivered in the most efficient
and economical manner possible. ,,1 The PSRO program was a
response to increasing Medicare and Medicaid costs and the

failure of existing utilization and claims review mechanisms to

deal with widespread inappropriate usage of health care services.
The congressional rationale for replacing the PSRO program with



                                                      ,,2
the PRO concept was based on the fact that the PSRO program had

"been faced with certain structural problems: overregulation and

too detailed specification in laws (had) restricted innovation in
new approaches to review.
The PRO legislation emphasized , greater accountability by requir­
ing PROs to have performance-based contracts with specific

measurable obj ecti ves. The PRO legislation shortly preceded the
Prospective Payment System (PPS) legislation and the PROs were

expected to address concerns about the potential negative

incentives of the PPS for increases in hospitalizations and

reductions in the quality of care provided to Medicare benefi­

ciaries.  Compared with former cost- reimbursement systems , PPS
gave hospitals much stronger incentives to increase Medicare

payments by increasing their numer of admissions and to reduce
costs by limiting services or discharging patients                            earlier.
Hence, the PROs were charged w th monitoring the system to

protect against potential provider abuses. such as unnecessary
admissions, substandard care, and premature discharge.
The Secretary of the Department of Health and Human Services

(HHS) was mandated legislatively to enter into PRO contracts with

 physician- sponsored" or " physician-access" organizations.
physician-sponsored organization is composed of a substantial

number of physicians in the review area and is representative of
those physicians. A physician-access organization has an

adequate number of available physicians practicing medicine or

surgery in the review area.
First Scope of Work (1984-86)
The PRO program was implemented i    54 States and territories

through 2- year, fixed- price contracts with " peerreview
organizations. " Each of the 50 States , the District of Columia,
Puerto Rico , and the Y:irgin Islands was designated as a separate
PRO area. Guam, American Samoa, the Northern Mariana Islands, and

the Trust Territory of the Pacific Islands were designated a

single PRO area.
The first contracts, which became effective over a 5- month period

from July to November 1984, emphasized detection of inappropriate

utilization and paYments under the new PPS   system.To that end,
contract goals included reducing unnecessary admissions , ensuring

that paYment rates matched the diagnostic and procedural

information contained in patient records, and reviewing patients

transferred or readmitted within 7 days of discharge to determine

whether readmission was for the same condition as the first

hospital visit. In addition, each PRO contract included at least

five obj   ectives: reducing unnecessary readmissions because of
substandard care during the prior admission, ensuring the
provision of medica,l services critical to avoidance of

unnecessary patient complications, reducing unnecessary surgery

or other invasive procedures, reducing the risk of mortality and

reducing avoidable postoperative or other complications. The

PROs were also expected to develop and analyze Medicare patient

data to identify instances and patterns of poor quality.
When the PROs identified problems with given physicians or

hospi tals, they were expected to address those problems through

education and consultation, intensified review, or denial of
paYment for care that was not reasonable or was provided in .
inappropriate setting. The PROs were also authorized to recom­

mend the sanction of physicians or providers in cases of a

 substantial violation" in a " substantial numer of cases" or a
 gross and flagrant" violation even :in a single  case. Such cases
were referred to the Inspector General' s Office for review and

sanction determination. (A further discussion of the sanction
process appears later in this introduction.

Second Scope of Work (1986-88)
During the first contract period, several entities, including the

General Accounting Office, the Inspector General of the Depart­

ment of Health and Human Services, and the Rand Corporation,

studied the PROs ' performance and recommended that their quality
review be strengthened. (See appendix IV for a sumary of PRO-
related studies.     In response to these findings and general

pressure from w.i thin and outside of the Department, HCFA
strengthened the quality review requirements in the second PRO

contracts which began in July     1986. Inthose new contracts, the
44 PROs that were responsible for review in the 54 PRO areas (see
appendix V for a summary of PROs with more than one contract) had

the following requirements:


      review of readmissions to the same hospi tal within 15   days;
      review of a sample of discharges to assess whether there was

      evidence of premature discharge or transfer;

      review of hospitals . with unexplained statistical outliers in
      the PRO data on high mortality rates or utilization

      patterns;
      application of a standard set of quality-related criteria

      (called generic quality screens) to all cases selected for
      PRO review. These six generic quality screens included:
      adequacy of discharge planning, medical stability of patient

      at discharge , deaths, nosocomial infection, unscheduled

      return to surgery, and trauma suffered in the hospital;

      special review of s ort hospital stays; and

      development and implementation of community outreach

      programs.
Thus, the second scope of work intensified the PROs I review

requirements. In    addition to generic quality screens, all
records selected for retrospective review for any reason were

also subj ected to admiss ion review , DRG validation, coverage
review, ' and discharge review.
The Senate Finance Committee staff in a background paper,
 Quality and Access to Health Care Under Medicare I s Prospective
Payment System, " noted that , "these changes in the PRO review
effort were designed to increase detection of premature

discharges; to improve review of care in the hospital,
particularly the detection of situations where under-service may

impact the quality of patient cases; and to improve the patients'
understanding regarding their rights and appeals under the

system. "
(See appendix VI for a sumary of    the differences   between the
first and second scopes of work.

COBRA and OBRA Provisions:


The PROs I responsibilities were substantially increased    through
provisions of the Consolidated Omnibus Reconciliation Act of 1985

(COBRA) and the Omnibus Reconciliation Act of 1986 (OBRA). The

COBRA legislation required the implementation of preadmission

review for 10 surgical procedures and preprocedure review of any

cases involving assistants at cataract surgery. It also gave

PROs the authority to deny payment for quality of care concerns.
The OBRA legislation extended the PROs ' review from only

inpatient hospital settings to ambulatory and posthospital

settings.  Over the n xt several years, the PROs will be expected
to review care delivered in hospital outpatient departments,
ambulatory surgical centers, skilled nursing facilities, home

health settings, and doctors  ' offices. In addition, in certain
States, PROs are performing quality review of health maintenance

organizations (HMOs) and competitive medical plans (CMPs). (See
appendix VIII for a summary of COBRA and OBRA provisions.

Visibili ty and Vulnerability of the PRO Proqram


As reflected in the legislative history, the scope of the PRO

program significantly expanded after its   inception.That
expansion has been accompanied by extensive scrutiny from many

oversight entities within Government and from provider and

consumer groups outside Government. To date, Congress has held

eight hearings related to the PRO program and numerous research

and oversight entities have conducted PRO-related evaluations.
(See appendix IV.
The complex identity and inherent vulnerability of the PROs was

sumed up by one PRO spokesman:
     "It is clear from my vantage point that PROs are

     quickly becoming all things to all people... The

     Inspector General of the Department of Health and Human

     Services is searching vigorously for a policeman of the

     marketplace. The   Executive Office of , Management and
     Budget is' looking hard for cost containment services,
     particularly to hold the line on Medicare admissions.
     The Medicare beneficiary community earnestly desires a

     protector of quality as the incentives of diagnosis

     related group (DRG) payment and capitated arrangements

     invi teunder-service.  Heal th care consumers seek ready
     access to the information that review activities can

     generate. How else will a competitive market place

     work? Local practicing physicians remain wedded to a

     responsibility to monitor and evaluate their own

     practice behavior. All this and more for one-fifth of

     1 percent of the Medicare hospital trust fund (the PRO

     budget for a single year) . .. Can there be any doubt

     that PROs will surely fail on someone' s scorecard?,,4

Administration and Oversiqht of the PRO Proqram

The Health Care Financing Administration (HCFA) is responsible

for administering and overseeing the PRO program through its

Office of Medical Review in the Health Standards and Quality

Bureau (HSQB). These functions are shared by central and
regional office staff. ' The former group is responsible for
establishing the operational and evaluation policies and

mechanisms for the program and for negotiating the PRO contracts.
The latter group is responsible for implementing program

requirements and providing regular oversight and technical

assistance to the PROs in their respective regions.
Since the inception of the PRO program, both HHS and HCFA

leadership have changed. In response to substantial concerns
raised about their predecessors' management of the program, the
Secretary of HHS and the Administrator of HCFA have met periodi­

cally since 1986 with physician, hospital, consumer, and PRO

representatives to hear their concerns about and suggestions for

improving the PRO program. In response to those meetings , a "PRO

action plan" has been developed to improve both HCFA' s management
of the program and the PROs' performance and effectiveness. The

action plan has served as a resource for HCFA in its ongoing

efforts to strengthen the PRO program.
The , HCFA has faced numerous challenges in overseeing the PRO
program. Like   the PROs , HCFA has responded to competing expecta­
tions from wi thin and outside the Government. For instance, HCFA

has juggled pressures to make the PROs accountable for quantifi­

able outputs with those to give the PROs the, proper   flexibility
to carry out their mission in an efficient and effective manner.
In addition, HCfA has had to balance the expectation that

additional PRO provisions (such as COBRA and OBRA) would be

implemented quickly with the pressures to follow formal mechan­

isms. All the while allowances had to be made for the limi ta­
tions of available quality review technology. The HCFA has also

had to juggle its mandates to carry out congress ional intent for
the PRO program and to operate wi thin the apportioned funding
levels prescribed by the Executive Office of Management and

Budget. A more detailed description of HCFA' s  role    the PRO

                                                       in
program will be included in a subsequent OIG report.
The PROs' Ouali ty Review and Intervention Procedures


As part of their ongoing quality assurance efforts, the PROs draw

a sample of hospital records for a review of both quality and

utilization elements.   Those records are reviewed on a case-by-
case basis , using six HCFA- generated generic quality screens and
discharge criteria,  as well as PRO-specific  screens. The PROs
employ nurse reviewers, or other health care professionals, to

perform the initial review of     records.
                                         They refer any potential
quali ty cases to physician reviewers for final determination.
The PROs also identify potential quality problems through

 profiling, " in which they use their data system to identify
patterns of inappropriate care.
Once the PROs have determin d that a quality problem exists,         they
are required to initiate corrective action which may include         the
following:  intensified review , alternate timing of review
education, and sanctions.
Intensified review involves sampling a larger percentage of a

particular , physician'
                     s or provider' s, records (often 100 percent)
in the subsequent quarter to verify whether or not the identified

problem has continued. Intensified review may also be used after

contact with the physician to ensure that the particular problem

has been corrected.
Al though most PRO review is done on a retrospective basis, the
PRO may choose to alter the timing of that review to address

particular problems. For  instance, if a particular physician has
a large number of unnecessary admissions , the PRO might initiate

preadmission review of the physician I s patients.
The PRO may also require that a doctor enroll in continuing

medical education. This could include the physician' s taking

specialized courses or possibly retaining a physician consultant

to review his or her cases.
If the PRO determines that corrective action has failed to

address the quality problem adequately, the PRO is expected to

recommend the physician or provider for sanction. 5

The Sanction Process

The Secretary of Health and Human Services. is authorized to
impose sanctions on Medicare- reimbursed physicians or providers

if they have " gross and flagrantly" violated or " substantially"
failed in a " substantial number of cases" to comply with their

statutory obligations to provide (1) services which are . provided
 economically and ' only when, and to the extent they arE: medically
necessary,    (2) services that are " of a quality which meets
professionally recognized standards of health care, "   and,   (3)
services that are properly documented. For offenses related
the first two obligations, the Secretary may impose one, of two
sanctions-- ei ther a monetary penalty for no more than the actual
or estimated cost of the medically improper or unnecessary

services so provided" or exclusion from the Medicare. program for.
a specified period of     time.And for improper documentation, the
Secretary may impose a sanction or exclusion.
The PRO must provide the practitioner or provider with

 reasonable notice and opportunity for discussion" before making

its recommendation to the Secretary (42 U.    C. S 1320c-5(b) (1)).
Under the regulations, the provider or practitioner is entitled

to an opportunity to submit additional information and/or meet

with the PRO to discuss an allegation of " gross and flagrant"
violation (s) . With allegations of " substantial" violations , the
physicians or providers are entitled to submit additional

information and to receive two notices of potential violation and

two opportunities to meet with the PRO. In either case, if the
PRO recommends the imposition of a sanction, the physician or

provider must be given 30 days' notice and an additional oppor­

tuni ty to submit written comments to the Secretary.

The Secretary has delegated the authority for sanction determina­

tions to the Office of Inspector General (OIG). Upon receipt of

the PRO' s sanction recommendation, the Inspector General must

determine whether he agrees with the , recommendation and whether
the physician or proYider has "demonstrated an unwillingness or

lack of ability substantially to comply with statutory obliga­

tions. " The Inspector General may accept, rej ect, or modify the

sanction recommendation forwarded by a PRO. In cases where the
PRO has recommended exclusion, the OIG must act on that recommen­

dation within 120 days or the exclusion automatically goes into
effect pending final determination by the OIG.
Wi thin the Office of Inspector General, the Office of Investiga­
tions is responsible for processing and reviewing each PRO

sanction referral. If the OIG accepts the PRO' s recommendation

the sanction goes into effect 15 days upon the relevant physi­

cian' s or provider s receipt of sanction notification. The
physician or provider may appeal the sanction to an administra­

tive law judge                            de novo hearing to
                                                   case. If
                             (ALJ), who will conduct a

review the facts of the            dissatisfied with that appeal,
the sanctioned party may then appeal to the Secretary' s Appeals

Council and may thereafter seek judicial review in
appendix VII for a detailed description of the process for

                                                             (See        court.
addressing a case of gross and flagrant violation versus a case

of substantial numer of substantial violations.
The peer review statute and imple enting regulations related to
the sanction process have attempted to balance the competing

priorities to pr tect both the ' rights , of Medicare beneficiaries
to receive high- quality care and the rights of physicians and

providers to receive adequate due                             process.
                                               That delicate balance
has meant that although a physician or provider has had an

opportunity to have at least two administrative entities (the PRO

and the OIG) review a case prior to the imposition of a sanction,
the process has deferred 
  full evidentiary hearing until after

the sanction has been imposed. 6

The PROs' sanction procedures have precipitated ongoing qebate

among all parties associated with the PRO program. Organized
medicine has argued vociferously that the PROs should provide

physicians and providers with stronger due process protection.
In an effort to address such concerns, the American Association

of Retired Persons (AAP), the American Medical Association
(AM), the Health Care Financing Administration , and the Office
of Inspector General drafted an agreement (hereafter rererred to
as the AAPjAMjHCFAjOIG agreement) in May 1987 to standardize
the PROs' due process p ocedures.  The new PRO sanction
instructions strengthened PRO notice procedures, clarified the

role of an attorney for the physician or provider at the PRO

discussions, ensured that physicians or providers would be

provided records of the PRO proceedings, and permitted expert

witnesses to provide relevant medical evidence at the PRO discus­

sions with the physician or provider.

Over the last year, both organized medicine and Medicare benefi­

ciaries from some affected communities have also argued that the

sanction process has adversely affected rural communi ties since

sanctioned physicians and providers have been excluded from the

Medicare program pending their ALJ  hearings.  Such concerns led
to a recent legislatively mandated requirement for ALJ review

prior to the imposition of an exclusion for any physician or

provider who is practicing in a "Health Manpower Shortage Area"
(HMSA) or in a county with a population of 70, 000 or less. 

addi tion, Congress has directed the Secretary of HHS to conduct a

year- end study of how the PROs' new standardized due process
procedures have impacted the PRO program.
Like other aspects of the PRO program, the sanction process has

been dynamic--changing as the PROs, the HCFA, and the OIG have

gained more experience and as particular groups have highlighted

its ambiguities and vulnerabilities. In addition to the afore­

mentioned changes, the OIG has recently proposed changes in the

use of monetary penalities.   The current statutory formula for
assessing monetary penalties is outdated giyen that the PROs'
sanction provisions were enacted prior to the advent of the

prospective payment system (PPS). For example, under PPS, it is
almost impossible to determine what Medicare Part A costs are for

improper or unnecessary care. Hence, the monetary penal ties
impo ed have generally been based on only Medicare Part B costs
and have resulted in amounts as low as $65.44.   In response to
that problem , the OIG issued a technical memorandum to all the

PROs in July 1987 highlighting the lack of cost efficiency of

monetary penal ties and suggesting new guidelines for forwarding
such recommendations to the OIG. In   addition, the OIG submitted
a legislative proposal to the Department in the Fiscal Year 1989
legislative process to modify the current monetary penalty

provisions so that a penalty of up to $10, 000 would be set for

each instance in which medically improper or unnecessary health

care services were provided.

                                                     ,'




           As of December 31, 1987 , the OIG had received 151 referrals from

           38 of the 54 PRO                    areas.
                                     The status of those cases is as follows:
                               - 61 exclusions ( 60 physicians and 1 facility)
                               - 26 monetary penalties (24 physicians and 2              facilities)
                                  2 physicians expired

                               - 54 rej ections by the OIG
                                  8 cases still pending


           A more thorough discussion of sanction issues and figures will be

           included in our forthcoming report on the sanction process.

                                                            FINDINGS
           Respondents considered quality review to be the most critical

           element of the PROs' mission and thouqht it has received

           increased focus durinq the second contract period (1986-1988)
           The PRO program emerged at a time of record budget deficits and

           thereby had the inherent mandate to limit Government expenditures

           by eliminating incentives to deliver unnecessary          However,
           the PROs were also expected to alleviate the public I s concern
                                                                                        care.
           that the PPS would precipitate a "deterioration in quality or an

           increase    negative patient outcomes. ,,7 Hence, the PROs were
                                   in

           the key instrument used by the Government to " exercise a degree

           of surgical precision vs. a meat ax approach when planning to

           eliminate waste while avoiding negative patient outcomes. ,,8
           An overwhelming majority of the PRO chief executive officers

           (CEOs), along with other groups interviewed, articulated the

           primary importance of quality review to the PROs' mission. (See
           figure I.
                                                          FI GURE I
                                   PERCEPT IONS OF THE PROS             PRI HAR   HI SS I ON


                                                                                PRO CH I EF EXECUT I UE
                                                                             rL OFF I CERS (CEOS )
                      QUA LIT           REV I EW .
                                                                                  CASE STUD PRO STAFF

                                                                                  A ND BOARD MEMBERS
             COST CO NT A INMENT                                                  HCFA REGIONAL AND
                                                                                  CENTRAL OFFICE STAFF

                                                                                  NAT I ONAL EXTERNAL
CONTRACT OBLI GAT IONS                                                       UENTITIES
                                                                                  LOCAL EXTERNAL

                                                                                  ENTITIES
                 OTHER RESPONSES'.                                                TOTAL FOR ALL
                                                                                  RESPONDENTS


                                          PERCENT A GE MENT I ON I NG     CONCEPT
No   te:              N= 1BB            esponden ts

Sou         ce: 01              G I nspec t i on I n te v i ews
In addition, although the PROs and others were equally divided

about whether the PROs I primary mission had changed since the
start of the PRO program, the maj ori ty of those who noted such a
change described it as a shift toward more quality review in the

second contract                 period.
                           Furthermore, a maj ori ty of respondents
thought that quality review was more important than utilization

review for carrying out the PROs                          ' mission.
                                               (See figure II.
particular, a vast maj ori                  ty
                              (64 percent) of the PRO CEOs thought
quality was more important than utilization review and most of

the '      others
            (32 percent) thought that quality and utilization were
equally important. While most other respondents shared similar

high regard for quality review , a maj ori ty of HCFA staff thought

that quality and utilization were equally important. The

national external entities were equally divided between quality

being more important than , and being as important as , utilization

review. As reflected in figure II, only 3 percent of the total

respondents described utilization review as being more important

than quality review.

                                                   FIGURE I I
                      PERCEPTIONS OF THE IMPORTANCE OF QUALITY REVIEW

                      RELATIVE TO UTILIZATION REVIEW FOR PRO PROGRAM




                            QUALITY REVIEW= 55x





            UTIL. REVIEW=3x

                 DO NOT 
      NOW= 3 x




                                  x Noting Quality o               Utilization
                                      Rev i ew as Mo e           I Mpo tan t
No   te:         N= 186         esponden ts .
S0u         e:        0IG    In s pe c t ion I
                                             n t    v i   ws .
Many of the respondents who viewed quality and utilization as

 equally important for the PRO
                               ission highlighted the inap­

propriate dichotomy that exists in peoples' minds between the

PROs' cost containment and quality monitoring               One
Government official explained that " quality assurance and cost

                                                                                activities.
savings go hand in hand because any unnecessary admission that is

avoided is also a potential quality problem avoided.

Generic quality screens appear to be useful instruments for

quali ty review. but may be in need of refinement


The HCFA required all PROs in their second contract period

 (1986-1988) to review all cases against a set of criteria (called
generic quality screens) designed to identify potential quality

problems. The generic quality screen process includes reviewing
the following six                       elements:
                                1) adequacy of discharge planning,
2) medical stability at t me of discharge, 3) deaths

4) nosocomial infections, S) unscheduled return to surgery, and
6) trauma suffered in                        hospitals.
                                     Two-thirds of the PRO CEOs
thought that the screens have been at least moderately effective

in  identifying quality problems. A greater proportion (89
percent) of HCFA staff thought they were at least moderately

effective. In     fact, one HCFA staff person described the screens
as " a stro,ke 0 f genius.   On the other hand , a majority 0 f the
local external entities, particularly State medical licensure

board and American Association of Retired Persons (AAP)
representatives , thought the generic screens were only marginally
useful or not effective , and a sizable proportion of the national

external entities (47 percent) noted that they "did not know"

about the effectiveness of the generic quality
figure III.                                                   (See               screens.
                                                             FI GURE I I I
                                   PERCEPT IONS OF THE EFFECT I VENESS, OF
                                         GENERI C QUALI TY SCREENS

                                                                               PRO CHIEF EXECUTIVE

                   V ERY EFFECT I V                                            OFFICERS (CEOS)
                                                                               CASE STUDY PRO STAFF

                                                                               A ND BOA RD MEMBERS
 MODERATELY EFFECT I VE '
                                                                               HCFA REGIONAL AND

                                                                               CENTRAL OFFICE STAFF

     HI HI HALLY EFFECT I VE                                                 nNAT' IONAL EXTERNAL
                                                                             LLENT I TIES
                      HOT EFFECT I V E                                          LOCAL EXTERNAL
                                                                                ENTITIES
                                                                                TOTAL FOR ALL

                           DO NOT HNOW                                         RESPONDENTS




                                  PERCENTAGE OF CATEGORY RESPONDING

No   te:          H=i85           esponden ts

S0u          e:           0IG    In s pe c t ion   I   n t    v i 

               , '                              " ",   .   .. ..




A recent Ernst and Whinney telephone survey of the PROs and a

sample of hospitals supported the value of the generic quality

screens.  The study I s findings noted that "the survey par­
ticipants strongly agreed the current generic quality of care

screens are effective in flagging cases of suboptimal quality. " 9
Such sentiments were echoed by many of the ' respondents in the OIG
inspection, who found the screens useful because they provide the

PRO program with national quality review procedures and encourage

reviewers to focus on quality. On the other hand , as reflected

in figure IV , several respondents from each group noted a variety

of problems with the screens.
                                                 F I GU RE I       U


                          CONCERNS REGARDING GENERIC QUALITY SCREENS



                                                                           V7PRO CHIEF EXECUTIVE
                                                                              OFFI CERS ( CEOS )
 EXCESS I VE REFERRALS
                                                                              CASE STUD PRO STAFF

                                                                              AND BOA RD MEMBERS
                                                                              HCFA REGIONAL AND

     I MPROPERL              FOCUSED                                          CENTRAL OFFICE STAFF

                                                                              NATIONAL EXTERNAL

                                                                              ENTITIES
           NEED REFI NEMENT                                                   LOCAL EXTERNAL
                                                                              ENTITIES
                                                                              TOTAL FOR ALL

              OTHER ISSUES                                                    RESPONDENTS




                             PERCENTAGE OF CATEGOR                     RESPONDING
No   te:             85       esponden ts

Sou        ce: 01         G I nspec t i on I n te v i ews

The concerns most frequently mentioned by respondents included

that the screens have produced excessive referrals to physician

advisers have been improperly focused, and need refinement. The
HCFA introduced the generic quality screens without,
them.  Instructions for implementing the screens required nurse
                                                                                    pilot-testing
reviewers to refer all cases identified through the screens

(screen failures) to physician advisers , regardless of whether

the nurse reviewers thought that such cases merited a higher

level of review.  Hence, the screens produced many false
positives" (cases that were identified as potential quality
problems but were subsequently dismissed by the physician

reviewers), which proved expensive for the PROs, professionally

frustrating for both the nurse reviewers and the physician

advisers, and caused much ill feeling in the medical community.
In response to loud protests from the PRO and medical com­

muni ties, HCFA has allowea the PRO nurse reviewers some discre­

tion in using their " professional judgment" with cases identified

by the generic quality screens.
Other problems indicated by respondents were that the screens

lack flexibility for local use and that their interpretation and

application are inconsistent among PROs. This inconsistency is
also suggested by our recent analysis of the generic quality

screen data reports that the PROs submit to HCFA. We analyzed
those reports through July 30, 1987. Given the staggered start­
up of the PROs and hence the variable numer of months reflected
in each PRO' s aggregated totals as of July 30, 1987 , we are

unable to draw definitive conclusions from the          However,
the figures do reflect wide variations in both the percentages of

                                                                                   data.
cases that failed particular screens and the percentages that

were later confirmed to be quality problems. The national ranges
for each of the six screens are reflected     table 1 below:
               in




                                                            ITABLE 1

           NATIONAL AGGREGATED PERCENTAGE                             RAGE OF GENERIC QUALITY
                  SCREEN FAILURS AND CONFIRMD PROBLEMS (1986-1987)
Screen                               Ranqe of Screen                      Ranqe o f   Conf irmed
Number                                      Failure                              Problems
                                                 1    -   17.                     o   -   100%
                                                 6    -   43.                     o   -   69.
                                                 1    -   11.                     o   -   63.
                                                 3    -   21.                     o   -   98.
                                               O. 1 - 12.       7 %               o   -   73.
                                                 4 - 17.                          5   -   82.
1 Percentage of all records reviewed that failed the screen

2 Percentage of screen failures that were subsequently confirmed

  as quality problems

Source:                  HCFA/HSQB/OMR, "Peer Review                    Organizat-ion Data Swnary,
                        July 1987.
Analysis of quality screen data for the 12 case study sites

further supports the suggestion that a substantial variation

exists among the PROs relative to their interpretation and

application of the generic quality screens. (See' appendix X.
Among the case study sites , generic quality screen # 1 (adequacy
of di charge planning) appears to be the most consistently

applied and useful screen, given the relatively high percentages

of cases identified by most of the PROs that were subsequently

confirmed as quality problems. Furthermore , analysis of the

quality screen data for the case study sites identified one site

    ) as a particular outlier because of its consistently low

percentages both of screen failures and of confirmed problems

with five of the six screens.
Such analysis supports the value of the PROs using some standard

generic quality screens in order for HCFA to compare and contrast

their outcomes. However, analysis of the data also suggests that

the current screens may need refinement.
The PROs' auality review efforts are limited by a lack of

consensus reqardinq the definition of quality medical care. by

the amount of resources available for such care. and bY the

current lack of sophisticated technoloqy to assess quality

Physicians must provide services and the PROs must evaluate them

within an environment where differin and sometimes competing

views of high- quality care coexist. l   One economic explanation
of the recent reemergence of the debate about the quality of and

resource allocations for medical care is that we are making a

transi tion away from a seller' s market (the relative scarcity of
physicians and health facilities of the previous 2 decades) to a

buyer' s market (an abundance of physicians and health facili­
ties).   Hence, buyers of health care--businesses, Government, and
individual consumers-- are asserting their priorities for quality

heal th care in both micro and macro contexts. In the micro
context, the various buyers want their notions of quality
incorporated into the individual care provided by physicians. In
the macro context, they want " a voice in the money transfers made
to providers per unit of service and in the use of resources in

the treatment of illness. " 11
The changing health care delivery environment is reflected in

Secretary Bowen' s recent article,"What Is Quality Care?" in
which he tells physicians that in approaching qual i ty
of care:


     "You must constantly weigh two matters. One is the

     enduring concern for patients as people that you bring

     with you as a physician, and the other, more public, i:
     a recognition that your desire to extend the physi­

     cians' healing touch must be tempered by the limits of

     society' s resources.... We who practice medicine have
     not until recently had to consider the public perspec­

     ti ve.  For us, it has always been the patientfirst,
     regardless of  costs....  But now.. . events force a
     different and wider perspective on every practicing

     physician. ,,12
             p. 


One analysis of the differing views of what constitutes quality

is summarized in table 2 below:


                                TABLE 2
                      DIFFERING VIEWS OF QUALITY

     Interested
     Party                       Hiqh Priority Elements of Care
     Consumers                   Responsiveness to perceived care
                                 needs
                                 Level of communication,     concern,
                                 and courtesy
                                 Degree of symptom relief

                                 Level of functional improvement

     Practi tioners              Degree to which care meets the
                                 current technical state-of-the-art

                                 Freedom to act in the full interest

                                 of the patient

     Purchasers                  Efficient use of funds available
                                 for health care

                                 Appropriate use of health care

                                 resources
                                 Maximum possible contribution of

                                 heal th care to reduction in lost

                                 producti vi ty
Source:      J ames Roberts,M. D.and J ames Prevost, M. D.
                                                         "Using
             Outcome Indicators to Evaluate Quality of Care     The
             Internist Health Policy in Practice , September 1987
                11.


                                                   it.
Just as different views coexist about how to define quality,
several perspectives also exist about how to measure
classic model for measuring    quality, developed by
                                                          The
Avedis Donabedian, focuses on three components: structure,
process, and outcome. Structure includes such factors as whether
a hospital has a regularly operating quality assurance committee

and whether the physicians on staff are properly credentialed;
process includes such factors as whether a physician or provider

delivers care that conforms with generally recognized standards

of quality; and outcome includes such factors as morbidity,
mortali ty   and patient satisfaction.
All these factors interact in the, measurement of quality.
Several private entities are responding to the Public' s growing

demand for quality assurance by developing new quality assessment

methodologies. For instance,                                                 the Joint Commission on Accredi   ta­
tion of Heal thcare Organizations (JCAHO) is currently identifying

key clinical indicators of quality in order to create a national

data base of normative performance to which an organization can

compare its own performance. Such data will be adjusted for

difference in case                              mix.
                          Other academic institutions and private
companies have developed various computer programs to evaluate

clinical outcomes. Al                      valuated their effec­

                                                        though we have not

ti veness, these new software systems           the Medical                         include:
Illness Severity Grouping System (MedisGroups), the Acute

Physiology and Chronic Health Evaluation (APACHE II), the

Computerized Severity Index (CSI), the Disease Staging and the

Patient Management Categories (PMC). 14

In the course of our interviews with PRO CEOs and staff, many

voiced concerns about their lack of accessibility to the latest

quali ty assessment technologies. The PROs' current case-by-case

review of patient records is a highly labor-intensive process.
Virtually all the case study sites are experiencing high turnover

among nurse reviewers who constitute the backbone of the review

process. In    addition, several PROs, as well as national external
anti ties , voiced the feeling that the PROs should be more in the
forefront of quality assurance research--both in field testing

severi ty measures and developing new quality assurance tech­

niques. As one PRO medical director put it, "We should be the

national leaders of quality assurance research. "IS
The PROs exhibit qreat variations in their approaches to 


outcomes of quality review

As previously stated, our analysis of HCFA' s data reports through

July 30, 1987 , suggested that the PROs' interpretation and
application of the generic quality screens were inconsistent.
In addition, recent congressional testimony by Sidney Wolfe, M. D. ,
Director of Public citizens Health Research Group (PCHRG),
reflected that the PROs vary in their provision of quality-

related information to the public. Most of the PROs surveyed by

PCHRG appeared to receive and process little or no requests for

public information, while a few PROs appeared to be very active

in providing such information.

Our case study site visits enabled us' to! compare and contrast the
PROs' processes for reviewing and addressing quality' of care
problems. We found great variation among, the PROs ' review

systems regarding the following:

             the number of severity levels                                        (i. e.   " three to six);
             the number of review layers (i. e.       number of different
             groups of individuals who review . a given case) ;

            the number and type of intervention steps and time frames

            between the identification of a quality problem and the

            potential sanctioning of a physician or provider;
     the number of cases required to constitute a " substantial
     numer of substantial violations; " and
     the guidelines for determining what penal                 ties (monetary
     penal ty or exclusion) to recommend in sanction                 cases.
Furthermore ,our analysis of HCFA' s aggregated Quality Interven­
tion (544J) Report for the 12' case study sites through
September 30, 1987 suggested some interesting patterns. 

general, the PROs repo ted using very little formal education as

an intervention tool and relatively little intensified review.
One State reported no new physicians with quality problems within

four quarters, whereas another found 5, 694 in , the same time
period.  Most significantly, the two case study site PROs that
had the most complicated quality review systems (in terms of

layers of review) also were among the three least active PROs

according to the 544J             report.
                                The variations in the PROs'
reporting reflected either inconsistent interpretation of the

report instructions or differences in their approach to quality

review.
The PROs' impact on ensurinq hiqh- quality care would be enhanced

bv qreater coordination with other health care ent

particularl y with the State medical licensure boards
PRO Relationships with State Medical Licensure                 Boards:
Sixty-seven percent of the           EOs no d a relatively poor

                                      44 PRO

working relationship (i. e. , less than " moderately effective"

with State medical licensure boards (See figure V) and

27 percent of them indicated that they needed clarification of

their Federal confidentiality                  restrictions.
                                                Several CEOs noted
that their wish to work more cooperatively with the State medical

licensure boards is inhibited by their uncertainty about what

information they are allowed to share with those
HCFA has yet to release clarifying instructions (i. e. , the

                                                             The boards.
confidentiality chapter of the , PRO Manual) to the PROs on this
issue.
In only one of the 12 case study States did the PRO and the State

medical licensure board representatives agree that they had a

 very effective relationship. ". In that particular best. practice
State, the close working relationship between the organizations

was fostered by the cross-fertilization of personnel--two current

medical licensure board staff were former PRO employees, and one

physician on the State medical board also sat on the PRO board of

directors.    However,  every other case study site, at least one
                             in

of the two organizations perceived a poor working relationship

between the two          organizations.
                                 Several PRO CEOs mention d that
they had referred sanction cases to their State medical board but

had received no feedback.
                                        , ,/



                                                FIGURE V

                          PRO CEOs     PERCEPT IONS OF EFFECT I VENESS OF
                    PRO RELATIONSHIPS WITH STATE EXTERNAL ENTITIES


                                                                    liVERY EFFECTIUE
MED. LICENSURE BRDS.                                                CjMODERATELY EFFECTIUE
                                                                         MI NI MALLY EFFECT I UE

     HOSP. ASSOCI AT IONS                                           EJ NOT EFFECT I V
                                                                    LJNO RELAT I ONSH I P

           MEDICAL SOCIETIES





                             PERCENTAGE OF PRO CEOS RESPONDING

No   te:     N=44          esponden ts
Sou        ce: 01        G I nspec t i on I n te v i ews
The continuing pattern of poor working relationships between the

PROs and the state medical licensure boards is particularly

disturbing in view of a previous OIG inspection report on state

medical licensure boards which included recommendations for the

boards to improve their working relationships with other review

enti ties.          17

PRO Relationships with Hospital Associations:

As reflected in figure V , the PRO CEOs perceived having much

better relationships with their local hospital associations.
Fifty-eight percent of the PROs thought that their relationships

wi th their hospital associations were " very effective" and

33 percent thought that they were " moderately effective.     Our
case study site visits confirmed this                      pattern.
                                                  In two sites,
both the PRO and the hospital association rated their relation

ship as being " very effective.   In both those States, hospital
association board members sat on the PRO board. In eight of the
10 other States, the PROs and hospital associations ranked their

relationships as at least " moderately effective. Despite their
generally positive working relationships             f the PRO and

                                                             r several
hospital association staff mentioned that the PROs had had

problems wi th indi idual hospitals regarding th PROs
unwillingness to share information about particular physicians

who had been identified as having quality problems.

PRO Rela               ionships with Medical Societies:
The PROs' relationships with their respective State medical

societies, as reflected in figure V , appear to be stronger than

wi th the state medical licensure boards but less effective than

wi th the hospital associations. Seventy- seven percent of the PRO

CEOs reported at least moderately effective relationships with

their medical societies. Again , our case study si te visits
supported the pattern reflected by the CEO interviews. Two case
site PROs had " very effective" relationships with their respec­

tive medical societies 
  In both cases , the PROs were medical-

society sponsored. In most of the remaining sites , the PROs had
at least moderately effective relationships with the medical

societies.   Two States reported poor working relationships
between the PRO and the State medical society; one of the two had

a large number of sanction referrals and the other had none.
Most PRO and medical society respondents mentioned that the maj or

issues between their organizations focused on whether the PROs

quality intervention procedures provided adequate physician and

provider education and whether the PROs' sanction procedures

provided physicians with adequate due process.
Importance of Communication Between PROs and External      Entities:
In comparing the 12 PRO case study sites , we found that greater

coordination between the PRO and external entities seemed to be

enhanced when the PRO initiated some formal ongoing communication

link with that entity, either through representation on the PRO

board or through regular issue-related meetings.
Implementation of the Medicare and Medicaid Patient and Program

Protection Act of 1987 is intended, in part , to facilitate closer

working relationships and greater information sharing between the

PROs and other entities, especially State medical licensure

boards.  That legislation requires States to make available to
the HHS Secretary information concerning adverse actions taken by

State medical licensure boards against health care practitioners.
It also requires that the HHS Secretary disseminate information

on these actions to State medical licensure boards and to other

State and Federal              officials.
Most PROs are findinq it difficult to provide effective outreach

to Medicare beneficiaries.

Eighty-four percent of all PRO CEOs, 62 percent of HCFA     staff,
and 72 percent of the AAP representatives thought that the PROs
had at least moderately effective relationships with beneficiary

organizations. In  addition, the vast maj ori ty of the PROs
thought they were at least moderately effective in their outreach

efforts to benef iciaries                (See figure VI.
                                                  .. '


                                                               FIGURE VI
                                 PERCEPT IONS OF THE PROS                              EFFECT I VENESS
                                     OUTREACH TO HEDI CARE BENEFI CI ARI
                                                                                              PRO CHIEF EXECUTIVE

                  VERY EFFECT I VE .                                                       rL OFF I CERS (CEOS )
                                                                                              CASE STUDY PRO STAFF

                                                                                              A ND BOA RD MEMBERS
MODERATELY EFFECTIVE ,                                                                        HCFA REGIONAL AND
                                                                                              CENTRAL OFFI CE STAFF
                                                                                           r/NATIONAL EXTERNAL
     MINIMALLY EFFECTIVE
                                                                                           UENTITIES
                                                                                              LOCAL EXTERNAL

                     NOT EFFECTIVE                                                            ENTITIES
                                                                                              TOTAL FOR ALL

                                                                                              RESPONDENTS
                            DO NOT KNOW'





                                    PERCENTAGE OF CATEGORY RESPONDING

No     te:                 85       esponden ts
Sou          ce: 01             G I nspec t i on I n te v i ews
However, in contrast, a vast maj ori ty of the national and l
external entities either thought the PROs were only minimally or

less effective or "did not know" how effective the PROs were in

their outreach efforts to beneficiaries. As one national entity

representative said:
this area that I would have heard about
anything.
                                              "I know that if they were doing much 


                                               And I haven t heard                      it.
The major outreach activities mentioned by the PROs included

speaking engagements, hot lines, radio spots, and newspaper

articles.   The major reasons cited for the PROs' relative lack of
activities in this area included the PROs I limited resources and

the fact that the elderly are a difficult population to reach

effectively. In . our case study visits, we observed three. PROs
wi th especially strong beneficiary outreach efforts. In all of

those organizations, particular staff have been assigned to that

function and have developed extensive video and written

materials.   They, along with consumer representatives on the PRO
boards, hold ongoing meetings with beneficiaries. Al though staff
at one case study site raised questions about the rationality of

the PROs having responsibility for beneficiary, outreach, most PRO
staff felt they could do more outreach activities if they wer

provided with the necessary resources and opportunities to share

ideas with other PROs. Aside from the AAP, we heard of few
other private or Government organizations providing information

to the beneficiaries about their local PROs. For instance, only
6 of the 44 PRO CEOs reported that their local Social Security

offices distribute PRO-related information.
The PROs will face serious challenqes and obstacles in reviewinq

care in nonhospi tal settinqs


Seventy-five percent of all CEOs interviewed anticipate
                                                                                                         roblems
in reviewing care in nonhospi tal settings and the four other

groups interviewed voiced similar levels of            Besides the
normal learning curve associate1 with any new activity, the

                                                                                            concern.
primary concerns anticipated by various groups are reflected in

figure VI!.
                                                                F I GU HE U   I I


                                          EXPECTED PROBLEMS WI TH REV I EW IN

                                                          NON-HOSPI TAL SETT I NGS

                                                                                             PRO CHIEF EXECUTIVE

                                    FUNDI NG                                                 OFFI CERS (CEOS )
                                                                                             CASE STUDY PRO STAFF

                                                                                             AND BOA RD MEMBERS
                         REGULAT IONS
                                                       HCFA REGIONAL AND

                                                                                             CENTRAL OFFICE STAFF

                       DATA SOURCES                                                   r7 NA T I ONA L EXT ERNA L
                                                                                             ENTITIES
                                                                                             LOCAL EXTERNAL

 MED. COMMUN. SUPPORT                                                                        ENTITIES
                                                                                             TOTAL FOR ALL

         REV I EW TECH NOLOGY                                                                RES PONDENT S


 COORD. w/S NFs 





                                    PERCENT A GE OF CA T EGORY RES POND I NG
N=185               esponden ts/Sou                  ce: 01 G I nsp.          I n t   v i

*SNFs--Ski 11 ed                                s ing ac i        it i

*HHAs--HoMe heal th agenc
The PROs' maj orconcerns focus. on the lack of adequate funding,
guidance (regulations) and data sources , as well as the lack of

support that they anticipate from the medical community. In
addition, they voiced concern about their inability to link data

on medical care provided to Medicare beneficiaries in hospital

settings (Medicare Part A) with data on medical care provided to
them    nonhospi tal
             in                         settings
                             (Medicare Part B).
The HCFA staff anticipated that the PROs' maj or problems in
reviewing care in nonhospital settings would include (in descend­

ing order of frequency) the lack of adequate data sources and

review technology for ambulatory settings as well as the inherent

difficul ties of coordinating with multiple skilled nursing
facilities  (SNFs) and home health agencies          The national     (HHs).
and local external entities anticipated that the PROs' major

problems would include (in descending order of frequency) the
lack of adequate review technology, the lack of support from the

medical community   the lack of available data sources and the

lack of funding.


In both our macro-level and case study interviews , individuals

from all groups voiced concerns about the feverish pace at which

the PRO program has moved. The PROs have been asked to do ever-
increasingly complicated reviews without the time and technical

assistance to do a credible
noted: "If                                                 job.
                                  As one PRO CEO staff person
                                                   why don t you
                    you really want to help us do better

leave us alone for a while?"


                                                     RECOMMNDATIONS

Quality of Care

            The HCFA should work with the PROs to develop more

            consistent approaches to defining and addressing quality of

            care problems.


            The HCFA should work with the PROs to ensure more consistent

             reporting of quality intervention acti vi ties.
            The HCFA should develop and widely disseminate information

            on the full range of educational corrective actions being

            taken by the PROs to address quality of care problems.

            The HCFA should create more opportunities for the PROs to

            share information with each other concerning their quality

            review and intervention approaches.
            The HCFA should intensify its support of research to define

            and assess the quality of medical                     care.
                                                     In addition, HCFA
            should collect and integrate quality-related research

            findings from all relevant sources and disseminate them to

            the PROs.

Discussion:
The HCFA has an opportunity to build upon the work it has already

undertaken in rasearch related to quality of            care.
                                                     The PROs'
quality review efforts are difficult and complex , and they have a

limi ted track          record.
                         Implementation of the above
recommendations will help the PROs learn from one another'

experience and broaden the pUblic' s understanding of the PROs'
quali ty review efforts.


Generic Ouali ty         Screens
            The HCFA should ensure that any maj or modifications to the

            generic quality screens are pilot-tested before national

             implementation.
            The HCFA should promote greater consistency in the

            application of generic screens through its training efforts

            and operational instructions.
            The HCFA should support the development and pilot testing of

            more effective and less labor-intensive review

     methodologies.
Discussion:
Implementation of the generic quality screens was central to the

PROs' quality of care review
steps to refine the
                                      efforts.
                               screens.
                                       The HCFA has already taken
                              By also implementing the above
recommendations, HCFA will help to avoid unnecessary expenditure

of PRO resources and enhance the credibility of the PROs' quality

review efforts.


PROs' Coordination with Other Entities


            The HCFA should promote closer working relationships between

            the PROs and other health care entities and encourage more

            sharing of information about physicians and providers with

            quali ty of care problems. These efforts should include
            clarification by HCFA of the PROs' confidentiality

            restrictions and a regulatory requirement that PROs report

            physician misconduct or incompetence to State Medical

            Licensure Boards. This should be accomplished through the
            Notice of Proposed Rulemaking   (NPRM) onhanges to peer

     review organization regulations.
Discussion:
The PROs are one of 
 everal different types of entities respon­
sible for ensuring quality of medical care. ' By encouraging PROs
to work more cooperatively with other entities that share similar

missions , the HCFA will help maximize the PROs' impact on quality
of care.

PROs' Outreach to Medicare Beneficiaries


     The HCFA should seek ways to strengthen the beneficiary

     outreach efforts of the PROs. In this context, it should

     coordinate- more closely with the Social Security
     Administration and the Office of Human Development Services

     and should provide more opportunities for the PROs to share

     best practice approaches with each other.
Discussion:
An extensive network of Federally funded agencies provide

services to the Medicare population. By coordinating with those

agencies, the HCFA can help PROs gain better access to the

Medicare population it is charged to    serve.In addition, because
relatively few PROs have had extensive experience with such

outreach efforts , it is important to provide opportunities for
the PROs to learn from each other' s experiences.

Review of Care in Nonhospi tal settinqs


     The HCFA should work with the PROs to delineate the most

     significant constraints that will be faced in reviewing care

     in nonhospi tal settings and to develop strategies for

     address ing   these constraints.
     The HCFA should seek ways to improve the availability of

     data on outpatient and inpatient services provided to the

     Medicare population. In this context, it should build upon
     demonstration proj ects currently underway in Texas and
     Maryland to link the Medicare Part A (inpatient) and Part B

     (outpatient) data files.
Discussion:
The PROs' review of care in nonhospital settings will lead them

into unchartered waters. To prepare fo such broad and compli­
cated responsibilities, the PROs will need to use lessons learned

from their inpatient review    efforts.
                                      Implementation of the above
recommendations will help the PROs address the most critical

concerns in their efforts to carry out effsctively their expanded

responsibilities
                                          APPENDIX I
                                           ENDNOTES

      Federal Register, Vol.               49, No. 39,   February 27, 1984
      p. 7202.

2.    Tax Equity and Fiscal Responsibility Act of 1982, Commerce
      Clearing House, Inc. p" 37D. Senate Rept. 97-494 at 41.
3.    "Examination of Quality of Care Under Medicare' s Propective
      PaYment System, " Hearing before the Committee on                 Finance,
      United States Senate , June 3, 1984 , p. 44.

      Andrew Webber, "A PRO Report Card,     The Internist: Heal 

      Policy in Pract, ice , the American Society of Internal
      Medicine, July 1986, pp. 7-9.
      Material on the PROs ' quality review process was taken from

      the Conqressional Research Service Report for Conqress: The
      Peer Review Orqanization Proqram , Th Library of Congress

      October 23, 1987, pp. 20-21.
      Material for the description of the sanction process was

      taken from the transcript of Inspector General Richard

      Kusserow' s testimony at a hearing before the Subcommittee on
      Intergovernmental Relations and Human Resources, Committee

      on Government Operations, United States House of

      Representatives, October 20, 1987.

7.    Carole Magoffin, " Can PROs Uncover Quality Concerns?"
      Business and Health , the Washington Business Group on

      Health, July/August, 1986, p. 14.
      Ibid .,           p. 15.

      Ernst and Whinney National Office , 2000 National City

      Center, Cleveland, Ohio 44114, Tel. (216) 861-5000

      ext. 5800 , unpublished survey report.


10.   James S. Roberts, M
              D. and James Prevost, M. D.,   "Us   ing
      Outcome Indicators to Evaluate Quality -of Care:    The
      Internist:   Health Policy in Practice ;, the American Society
      of Internal Medicine, September, 19S6; pp.            This 10-15.
      thought- provoking article offers a definition of high­
      quali ty               care that bridges diverse perspectives: "High
      quality care identifies accurately and fully the health care

      needs (educatiQnal, preventative, restorative and main­

      tenance) of an individual or group and. pplies the resources
      (human and other) necessary to meet those needs in a timely

      manner as effectively as the practical state of the art

      allows. "
...:
, '" .                             , p.                          , "




11.      Uwe Reinhardt, " Quality of Care in Competi ti ve Markets,
         Business and Heal , the Washington Business Group on
         Health, July/August, 1987 , p. 7.


         otis Bowen, H.   , "Hhat is Quality Ca     Nev! Enqland   re?"

         Journal of Medicine , Massachusetts Medical Society,

         June 18, 1987 , p. 1578.
13.      Arnold Milstein, David Nash and Jonathan Sands, , "Auditing
         Qual i ty of Care: An Employer Based Approach,   Bus iness and
         Heal th , the Washington Business Group on Health,

         July/August, 1987       10.
         For a detailed summary of the elements and costs of these

         computer packages, see Charles M. Jacobs, Alan Brewster,
           D. and James B. Couch, M. D., J.    Severity of Illness in
         the Cost/Qual i ty Equation, The Internist: Health Pol icv in
         Prac ice , the A erican Society of Internal Medicine
         Septe ber 1987 , pp. 16-31.
15.      The following research efforts have recently been undertaken
         and should provide some valuable quality- related information

         for the PRO community:


              The National Academy of Sciences is conducting a study

              to develop a strategy for reviewing and assuring the

              quali ty   of care for Medicare beneficiaries                    and
              The consulting firm of Lewin/IMC, under contract with
              the HHS Assistant Secretary for Planning and Evaluation

              is conducting tv!O related studies. The first, "A
              Taxonomy and a Critical Review of Existing Quality of

              Care Guidel ines" will critique existing systems for

              enhancing qual i ty medical                     care. The second, " A Forward
              Plan for Expanding the Use of Quality of Care

              Guidelines " will develop a systematic plan for HHS to
              encourage the dissemination and application of

              clinically useful information on medical practices.


16.      Testimony of Sidney M. Wolfe, M. D., Director, Public
         ci tiz ens Health Research Group before the Subcommittee on
         Health and the Environment, Committee on Energy and Com­

         merce , U. S. House of Representatives , October 26, 1987.
17.      Medical Licensure and Discipline: An Overview , Office of
         Analysis and Inspections ,Office of Inspector General,
         Department of Health and Human Services, June 1986.
                                      APPENDIX II

                     BACKGROUND OF THE PRO INSPECTION

The Office of the Inspector General (OIG) is mandated by statute

to provide leadership and coordination within the Department of

Heal th and Human Services (HHS). The OIG is charged with
ensuring the economy, efficiency, and effectiveness of HHS

program operations.
Because of the PRO program' s vi tal role in protecting both the

quality of care of Medicare beneficiaries and the financial

integri ty of the Medicare program, the OIG has taken a keen
interest in and has had a close association wi th the PRO program

since its inception. Among other acti vi ties, the OIG has
conducted pre- award audits of the PRO and SuperPRO contracts and
of sanction cost estimates for HCFA and has made sanction

determinations on cases referred by the PROs.
The impetus for this inspection of PRO performance grew out of

the Inspector General'    s personal interestgaining a broad

                                                     in

perspective on the PROs' performance during the second scope of

work.
Al though several other entities had reviewed various elements of
evaluation of    it.
the PRO program (see appendix IV), no one had undertaken a broad

                     Hence, in the fall of 1986 , the Inspector
General asked the Office of Analysis and Inspections to conduct

an inspection of the PRO program in the spring/sumer of 1987.
In addition , the OIG' s Office of Investigations asked us to

incorporate a review of the sanction process into our overall

inspection. We designed the PRO inspection to integrate some

original PRO data collection and analysis with other existing

PRO-related data collected from primary and secondary sources.
Due to other OIG priori ties, completion of the PRO inspection
field work was delayed until the fall of 1987.
We designed this PRO inspection to provide the Inspector General

and other departmental officials, policy makers, and the public

wi th a broad perspective on the PRO program and how it has
changed over time.
In addi tiori to t
                 is inspection, the OIG has done and continues to
do other work related to the PRO program. The following is a
summary of some key audits and inspections.
Past Work


             Review of FinanC'ial Operations of Peer Review Organiza­
             tions (Audit No. 14-62158), which conclud'ed that most
             PROs made a sizable profit on their initial contracts

             and recommended administratiye and fiscal procedures

          for HCFA to incorporate into its management of the PRO

          program.
          Inspection of Inappropriate Discharges and Transfers

          March 1986, which concluded that many PROs had not

          effectively used the authorities or processes available

          to address poor quality of care associated with

          premature discharges and inappropriate transfer.
          report incluged recommendations regarding HCFA' s
                                                            The
          reporting and evaluation systems and suggested that the

          PROs be given authority to deny payments for substan­

          dard care.
          Report on Evaluation of California Medicare Review

          Inc.   (CMRI) Price Proposal for Development of
          Sanction Cases (Audit No. 09-61658), September 1986
            ich concluded that HCFA failed to include

          reimbursable sanction activities into its fixed- price
          contracts with the PROs. The report recommended that
          HCFA: (1) provide guidance to all PROs on the
          reporting of and accounting for sanction costs;   (2)
          require all PROs to establish adequate cost accounting

          systems for summarizing the costs of sanc ion
          acti vities;  (3) ensure all PROs develop and implement
          bid estimating procedures that more reasonably reflect

          the estimated costs of performing sanction activity;
          (4) ensure that all PRO contracts contain the necessary
          cost-reimbursement provisions required by the Federal

          acquisition regulations (FAR) before initiating any
          reimbursement of sanctions; and (5) require CMRI to
          provide an accounting of funds advanced for sanction

          acti vi ties and return any excess funds to the Federal
          Government. A subsequent report (Audit No. 09-8661662)

          was issued in May 1987 on CMRI' s price proposals for

          its first 117 sanction cases. That report reinforced

          the recommendations of the first report and also

          recommended that HCFA issue modifications to the PROs'
          fixed- price contracts to make only the PROs
          incremental sanction costs reimbursable.

Current Wo


          Tha Region VII Office of Audit is conducting a national

          cost-benefit analysis of five types of PRO review

          including retrospective admission , DRG validation, day

          outlier, cost outlier, and pre-admission. The audit is

          focusing on 14 PROs and is expected to be completed
          before the spring of 1988.

          The Office of Analysis and Inspections (OAI) is
          coordinating the national DRG Validation Study, an

          analysis of medical record data collected from 239 PPS

hospitals (for the    period October 1, 1984 to March 31,
of care proble  s.
1985) for DRG validation and identification of quality

                      The OAI central office staff are
coordinating the review but regional staff are respon­

sible for analysis of the PRO- related data on DRG

val ida tion and qual i ty . Those reports are expected to

be completed by the spring of 198?
                                 APPENDIX III

                             METHODOLOGICAL NOTES

Summary of Interviews

Because we wanted to examine how' both the PROs and HCFA viewed
themselves and were viewed by others , we conducted in-depth
(approximately 2-hour) interviews with a variety of people
associated with the prQgram. Those 211 individuals included " the
following:

          3 areas;
          PRO chief executive officers (i. e., all PRO CEOs as

          8 of the 44 PROs manage 2 PRO areas and 1 PRO manages

          other PRO staff and board members               , the medical

                                                     (i. e.
          directors , program directors , review        directors , board
          chairs , and consumer representatives         from the 12 PROs
          selected for case study site       visits)
          na tional external entity representa ti ves (i. e. , the
          American Association of Retired Persons, the American

          Hospital Association, the American Medical Association,

          the American Medical Peer Review Association, and the

          Public Citizen Health Research Group as well as the

          Department of Health and Human Services , Executive

          Office of Management and Budget , and congressional

          committee staff);


          local external entity representatives (i. e., State
          medical societies ,medical licensure boards , hospital
          associations, fiscal intermediaries, and the American

          Association of Retired Persons chapters associated with

          the 12 PROs selected for case study site            visits)
          Heal th Care Financing Administration (HCFA) central

          office staff (i. e.,from the Health Standards and
          Quality Review Bureau, the Office of Management and

          Budget, and the Bureau of Program Operations); and

          HCFA regional office staff        (i. e., all 10 Associate
          Regional Administrators for ' Health Standards and
          Quali ty, al- l 10 branch chiefs and a sample of the

          proj ectofficers       the Medical Review Branch) .
                                 in



Case Study Selection


In an effort to gain a first-hand perspective on the PROs'
operations , we made 3- "to 4-day site visits to at least one PRO
from each of the 10 HCFA geographic regions. ' As part of that
case study effort, we planned to compare those case study

     assessments to HCFA' s PRO-specific evaluation documents (i. e. ,
     PROMPTS and SuperPRO) for the second scope of         work.
                                                               Hence, we
     eliminated those PROs with a Nove       er
                                              1, 1987 contract start date
     ( i. e. , Group 5 PROs) from the case study sel ect ion, pool since we
     would be unable to obtain their corresponding HCFA evaluation

     documents in time for revievl. We also eliminated the Pennsyl­

     vania PRO frcm the selection pool since its second contract

     period only began on July       1987.
     We then drew a judgmental sampl, e of the PROs based on the

     following criteria:       size (as reflected by funding level),
     geographic location, a d sa ction activity level. We divided the

     PROs into four groups based on their Medicare contract awards

     ($2. 9 million or less , $3-5. 9 million, $6-8. 9 million, and
     million or more) and calculated the appropriate number of PROs to

     select from each funding      category.That selection of particular
     PROs focused on ensuring a group of PRO sites with a distribution

     of geog aphic area (i. e. , at least one PRO from each of the
     HcrA regions) and of sanction activity levels and with at least

     some representation of PROs that had both Medicare and Medicaid

     contracts.
     The final group of 12 organizations selected for site visits in

     the 10 HCFA regions were as follows:
HCFA Reaio          PRO Area                 Orqanization
                  Massachusetts         Massachusetts Peer Review
                                        Organization, Inc.
                                        Waltham, MA


                  Rhode Island          Heal th Care Review , Inc.

                                        Providence, RI

                  New York              Empire State Medical, Scientific and
                                        Educational Foundation, Inc.
                                        Lake Success, NY

                  Delaware              West Virginia Medical
                                        Insti tute, Inc.
                                        Charleston , WV
                  Florida               Professional Foundation for Health
                                        Care, Inc.
                                        Tampa, FL

                  Georgia               Georgia Medical Care Foundation
                                        At lanta, GA
HC?':. Reo-ion       PRO Area                     Orcranization
                     Indiana                      PEERVIEW , Inc.
                                                  Cannel, IN

                    Texas                         Texas Medical Foundation
                                                  Austin, TX

                     Iowa                         Iowa Foundation for Medical Care
                                                  West Des Moines, IA

                     Colorado                     Colorado Foundation for
                                                  Medical Care

                                                  Denver, CO

                     California                   California Medical Review , Inc.
                                                  San Francisco, CA

   :. 0             Oregon                        Oregon Medical Professional Review
                                                  Organization
                                                  Portland , OR
          In the case study selection process, we opted to choose PROs

          based on their individual contracts with HCFA, rather than

          combining multiple contracts held by one PRO for different PRO

          areas.  We chose Delaware as a PRO site to visit, although the
          West Virginia PRO actually holds the contract for Delaware.
          Hence, we refer to the West Virginia PRO in listing the case

          study PROs but note parenthetically that discussions focused on

          the Delaware contract. On the other hand , our site visit to the

          Rhode Island PRO focused on its operation in that state, although

          the   ode Island PRO also holds the PRO contract for Maine.
          Discussion Guides

          We designed seven separate but interrelated discussion guides to

          capture the perspectives of PRO executive directors , national

          external entities, other PRO board and staff, local external

          enti ties and HCFA central and regional office            staff.
                                                                       The
          discussion guide questions were structured so that we could later

          compare responses wi thin and a'        cross groups.
                                                             All di scussion
          guides grouped questions under three or four' .           categories:
                                                                           PRO
          assessment , qual i ty review and , sanctions, HCFA oversight, and in
          some cases , descriptive material      : The discussion guides included
          about equal numbers of closed and ' open-ended questions , but most
          of the closed questions had an open-ended probe following them.

          Interview ADProach

          We conducted approximately half the 211 interviews by phone and

          the other half in             person.
                                     For methodological consistency, we
          chose to interview all 44 PRO chief executive officers (CEOs) by

telephone and held subsequent additional on-site interviews with

those CEOs associated with the 12 case study PRO   sites.
addi tioTI to the
                12 case study PRO sites, we conducted on-site
rather than telephone interviews with most of the national and

local external entities and with HCFA central off ice staff.
The primary PRO inspection team consisted of four individuals

from Region I who conducted, 95 percent of the telephone inter-

                                     ones.
v iews and 80 percent of the on-s i te        Four additional field
team members (two from ' Region I and  two from  OAI' s central
office) conducted the other interviews. At      least  two team
members participated in each of the 12 PRO case study site

visi ts. Inspection inte 'iews ranged up to five hours with an
average length af two  hours.   We informed all participants
interviewed for this study that the confidentiality of their

specific responses to questions would be maintained, unless

otherwise cleared by them.
As part of our quality control plan, the proj ect leader assigned
one person to be the proj ect I s administrative coordinator. That
individual developed and maintained a tracking system for     all
discussion guides, correspondence, supplementary materials, and a
master schedule of team interviews.
Codincr and Analysis
We designed three primary and six relational data files, using

dBASE III PLUS, to store and tabulate interview responses. We

developed codes for all questions and one team member generally

coded all questions in a given file to maximize coding

consistency. In   addition, a different team member checked at
least a 20 percent random sample of the files to assure accuracy.
As part of the PRO inspection team I S quality control plan, the

proj ect leader assigned one team member to be the proj ect I s data
coordinator. In   addition to having primary resP9nsibil i ty for
designing the PRO data base, that individual had responsibility

for developing and enforcing data- related quality control

procedures.
We used dBASE III PLUS to tabulate all interview data by respon­

dent group (i. e., PRO CEOs, other PRO staff and board , HCFA,
national external entities, and local external   entities).
Other PRO-Related Data

In addition to interview data, we collected and analyzed other

PRO-related data including: HCFA' s monthly and quarterly data

summary reports for all PROs and HCFA' s PROMPTS and SuperPRO

reports for the 12 PRO case study sites. We also collected and

reviewed a wide array of other materials concerning PROs,
including newspaper and journal articles, congressional hearings,
and GAO , Library of Congress, OIG, and other studies and audits.
                                                          , "





Methodoloqical Considerations in Interpretinq PRO Interview Data


The reader should keep three caveats in mind when reviewing this

report. First' , because we wanted to give as comprehensive a view
of PROs as possible, we have integrated the case study data with

the universal data.   The case study data is generally used to
amplify broader-based findings , and such data is always clearly
labeled.   Although we used a judgmental rather than random
sampling methodology for choosing the case study sites, it is

worth noting that those sites are broadly representative of PROs

by size , geographic location , and sanction activity level.
A second caveat to keep in mind is that although we interviewed a

total of 211 individuals, a given question may have been directed

to only a subset of tha t universe. Therefore , in this report, we
all relevant summary tables and   figures.N=
have sought to clarify the number of people responding to a gi

question by noting the universe of respondents (i. e. ,
The third but perhaps most important consideration to highlight

                                                                 ) in


is that much of the information gathered in this study came from

questions with both closed and open- ended parts (e. g.  Do you
have any recommendations to the Federal Government regarding

actions it might take that would help PROs be more effective in

addressing quality of care issues "? Explain.    Because we chose

not to distribute the discussion guides prior to the interviews

the open-ended questions required the respondent to spontaneously

formulate his or her answers. Therefore , the per-centages of

people noting any particular answer vary much more than if the

respondents had been presented with limited response options or

had reviewed the discussion cruides prior to the interviews.
                                   ~~~



                                              APPENDIX IV
                                         RY OF PRO-RELATED STUDIES

Because the PRO program                is vi tal to the Medicare program and
exists wi 
        hin a highly vis ible      pol tical arena I several entities
have evaluated the                 program. The following is a summary of some
key studies related to the PROs:
              Past Studies


The Congressional Research Service (CRS):

                   "The Peer Review Organization Program, " October 23 I
                   1967: The  study presented a summary of the legislative
                   history, program features, and relevant issues of the

                   PRO program. The CRS report was prepared at the

                   request of the House Committee on Energy and Commerce 

                   Subcommi ttee   Heal th and the Environment. It revised
                                         on

                   a prior report prepared at the request of the Senate

                  Committee on Finance.
The General Accounting Office (GAO):
                   "Strategies for Assessing Medicare Health Care

                   Qual i ty I " December 3 0,      1987:
                                                     The study eva1 ua ted the
                   systems for assessing quality of care in the Medicare

                   program (i. e., carriers I intermediaries , and PROs) and
                   identified short- and long-term strategies for measur­

                   ing and monitor ing qual i ty 0 f        care.
                                                            Among other
                   suggestions I the GAO recommended that HCFA: review the
                   PROs' methods for dealing with quality issues; evaluate

                   the spheres of responsibilities of the PROs, FIs, and

                   carriers to determine that their responsibilities are

                   appropriately divided; require the PROs, FIs, and

                   carriers to maintain data related to quality; require

                   that patient diagnoses be recorded on Medicare out­

                   patient Part B claims and develop HCFA data files of

                   that Part B information; and develop a mechanism to
                   allow SuperPRO to evaluate PRO cases that were selected

                   through both the PROs' random sample and specific

                   samples of hospital records.
                   "Better Controls Needed for Peer Review Organization

                   Eval uations, " October 8, ' 1987: The study assessed
                   HGFA I S evaluation process for the 1986-1988 contract
                   awards and concluded that HCFA' s process was fraught
                   with inconsistent and inadequate documentation and

                   improper application of instructions. Al though GAO
                   found no evidence of inappropriate contract decisions

                   it recommended that: HCFA develop sufficient internal
                   controls for PRO evaluation, provide better ongoing

          monitoring to the PROs and collect and use adequate

          cost and performance data to set each PRO I S contract
          funding level.
           Reviews of Quality of Care at Participating

          Hospi tals, " Septerr.    ber 15, 1986:
                                             The study was based
          on a survey of California, Florida , and Georgia PROs

          and focused on the monitoring of inappropriate

          discharges and profiling of hospital and physician

          quali ty of care problems. The GAO recommended that
          HCFA require PROs to include quality of care review

          data available from the 1984-1986 contract period in

          their prof iling of hospitals and physicians and that

          the PROs review the appropriateness of the discharge

          destinations as part of their discharge reviews to

          better, ensure that patients needing skilled nursing
          awaiting placement. 

          care are allowed to remain in the hospital while


The Prospective Pa     ent Assessment Commission (ProPAC):
           Report and Recommendations to the             Secretary, U. S.
          Department of Heal th and Human Services            " April
          1986:  ProPAC, which is an indeperident commission
          established by Congress to' analyze and recommend
          changes in the prospective payment system , recommended

          in its second annual report that better information

          about PPS be provided to benef
          physicians.                             iciari
                                                 , hospitals, and
                       ProPAC also recommended that PRO review be
          extended to the overall episode of care , including

          skilled nursing facilities 1 home health care and
          outpatient surgery.
The Rand Corporation:
          Kathleen N. Lohr, " Peer         Review Organization:         Quality
          Assurance in Medicare,        " July 1985:               Study focused on
          the first scope of work for PROs' review of quality

          during the first two years of         PPS.               Rand recommended
          that the quality objectives in the 1984-1986 PRO

          contracts be broadened to include the use of generic

          screens and that quality review be given greater weight

          in the PRO review       activities.
          that the PROs I quality review be extended beyond 

                                                              Rand also. ' recommended
          hospital to include the Medicare beneficiary' s entire

          episode of care.
     Current and Future Studies bv the GAO


          The Financial Integrity Act Group at GAO is currently

          reviewing the internal controls for payments by

          Medicare intermediaries. As part of that study, the

         group is assessing the effectiveness of the SuperPRO as

         a control mechanism for PRO performance. A draft

         report is expected    soon.
                                   (Herb Danzler--Proj ect
         Leader) .
         At the request of the Senate Aging Committee, the
         Program Evaluation and Methodology Division (PEMD) is

         exploring how outcome data can be used to monitor

         quality of  care.   That study will include a review of
         how PROs use , available data in their profiling of
         providers. A draft report is expected soon.
         (Eric Peterson--Team Leader) .
         At the request of the House Ways and Means Committee,
         the PEMD is also designing a study to evaluate the

         PROs' handling of quality of care      issues.
                                                      The study     is
         still at the design   stage.("Jill Bernstein--Team
         Leader)
         At the request of the House Ways and Means Committee,
         the Human Resources Division (HRD), is undertaking a

         brief review of two aspects of the PRO program:
         analysis of the reasons for the lack of information

         exchange between the PROs and other quality review

         entities and an analysis of the variation among PROs in

         their criteria, fordetermining the appropriate sanction
         penal ty (monetary penalty or excl us ion) to recommend.
         The HRD is also contemplating an evaluation of HCFA' s
         management of the PRO program. (Steven Fox--Proj ect
         Leader)
See appendix II for a sumary    of the OIG'   s past and current work
related to the PRO program.
                                               APPENDIX V

                         THE PROS h"ITH MORE THAN on:: CON'!RACT*

                                                                Addi tional
Orcanization Name/Location                                   PRO Areas Reviewed

Professional Review Organization.                                 Alaska
  for Washington                                                  Idaho
Seattle, WA

West Virginia Medical         Institute, Inc.                      Delaware
Charleston




Delmarva Foundation for         Medical Care           Inc         District of
Easton, MD                                                         Columbia
   laii Hedical Services Association                               Guam/American Sar.
Honolulu, HI

PEERVIEI':        Inc                                              Kentucky
Carmel, IN

Health Care Review , Inc.                                          Maine
Providence ,        RI

Iowa Foundation for Medical               Care.                    Nebraska
West Des Moines, IA

New Hampshire Foundation for Medical Care                          Vermont
Dover ,      NE

Montana-Wyoming Foundation              for.                       Wyoming
  Medical Care

Hel ena,
*Note: Eight PROs hold two contracts; one PRO holds three                    contracts.
                 ;'.




                                     APPENDIX VI
                COMPARISON OF 1984 SCOPE OF WORK TO 1986 SCOPE OF WORK

        Revie          e2.               1984                  1986
Obj ectives                    3 Admission Obj ectives   5 Obj ecti ves
                               5 Quality Objectives
     Based on PRO data

                               All proposed and vali­
   from first 90 days

                               dated by PROs. Very       of generic quality

                               limited areas for
        screen review.
                               focusing obj ectives      HCFA- identif ied
                                                         outliers.
                                                         Broader obj ecti ves
Ra:;dom Samples                5% Admission Sample
      3% random sample

                               DRG Sample ranging
       (incl udes 1 and 2
                               from 3% to 100%
          day stays)
                               based on hospital
                               discharge size
?rcad     ission Review        5 Procedures proposed
    Pacemakers plus

                               by PRO
                   procedures pro­
                                                         posed by PRO

Pacemakers                     100% retrospective
       100% preadmission

                                                         (see above)

Transfers                      From P?S to another
      Same but lower

                               hospi tal, exempt         level of review

                               uni t, swing bed

Readmiss ions
                 All readmissions
         All readmissions

                               within 7 days             wi thin 15 days
Hedicare Code
                 100% of 9 diagnoses
      Same
Edi tor
Focused                        468                       468, 462, 088
DRGs                           (462 added during
                               contract period)

Outl iers
                     100% (reduced to 50%
     50%
                               during contract
                               period)
Percutaneous                   Not in contracts
         Review all claims

Li thotripsy                                             for percutaneous

                                                         Ii thotripsy in
                                                         hospitals which

                                                         have an extra­
                                                         corporeal shock     wave

                                                         Ii thotripter
         Revie\. 1 Area              1984                     1986

Validation of                Not in contracts
         Sample of one

Objectives                                             quarter s dis­
                                                       charges to validate

                                                       obj ective performan
Hospi tal     Notices        100% where patient
       Same
                             or physician dis­

                             agrees.  100% where
                             patient is liable.
                             10% of remaining

Specialty Hospital
          Proposed by each PRO
     15% of discharges

Rev i ew
    ission Pattern
          Discontinued during       Not in Scope of Work

!1oni   to ring              CO!1t:-act
        ensified Review
     Tr igger:                 Trigger:
                               5% or 3 cases
          5% or 6 cases

                             (whichever is greater)
   (whichever is
                             of cases reviewed
        greater) of cases

                             Review increased to:      reviewed. Review
                             100% or subsets
          increased to: 50% or
                                                       subsets (first quarter)
                                                       100% or subsets (two o

                                                       more consecutive
                                                       quarters)
 Communi ty       Outreach   Not in contracts          All PROs to propose

                                                       program
                                                       *All cases reviewed

                                                       are subj ectto generic
                                                       qual i ty     screens,
                                                       discharge review

                                                       admission review , DRG

                                                       validation, and coveragE
                                                       review.

 Source:      HCFA
                                APPENDIX VII

         SANCTI01; PROCEDURES   FOR CASES OF GROSS    ND FLAGRANT
           AND S\.BS'!AN7IAL N\:!1BER OF SUBSTAl;TI L VIOLATIONS
               chart sur..marizes the steps that a PRO and the
The, follov,ring
Department of Health and Human Services must follow in reviewing

the heal th care services rendered to Medicare beneficiaries by

individuals or entities and in determining whether statutory

violations have     occurred. Because of the extreme seriousness of
gross and flagrant violations, the two-tier review process treats

those cases more expeditiously than cases of substantial number

of substantial violations.


SUBSTA '!IAL VIOLATIONS IN A
SUBSTANTIAL NGMBER OF CASES
                         GROSS AND FLAGRJ. NT VIOlJ. TION

Definition A pattern of care                         Definition   - a violation of an
has been provided that 
                             obI iga tion has occurred in one
inappropriate, unnecessary, or
                      or more instances which prese

does not meet recognized profes­
                    an imminent danger to the

sional standards of care                             heal th, safety or well-being 

or is not supported by the
                          Medicare beneficiary or places

necessary documentation of care                      the beneficiary in high risk

as required by the PRO.                              situations
42 C.  R. Section l004. 1(b).                        42 C.    R. Section 1004.   1(b).
Step 1 - Written notice of a                         Written notice of a potential
potential violation by the PRO.                      violation by the PRO. Subj ect
Subj ect has 20 days to request a
                   has 30 days to ask for a meet i:
meeting and/or submit additional                     and/ or submit additional

material to explain, clarify, or
                    material to explain, clarify,
resolve the potential violations.
                   or resolve the potential viola­
42 C.  R. Section 1004. 40.                          tions.
                                                     42 C.    R. Section 1004.   50.
Step 2 - PRO review of additional
material submitted and/or the
                       PRO review of additional

meeting.                                             material submitted and/or the

                                                     meeting. On the basis of
                                                     addi t, iona l information re­
                                                     ceived , the PRO may affirm,
                                                     modify, or reverse its

                                                     determination.
                                                     42 C.    R. Section 1004.   50(c).

Step 3 - If the PRO determines                       PRO proceeds to Step 

that a violation has occurred
attempts to develop a corrective

                                       , it
action plan, which is agreed to

by the provider or practitioner,
to resolve the     case.
     ep
     4 - In those cases
unresol ved at     3, the PRO is   step
to provide written notice to a

provider or practitioner that

possible violations have been

identified.   Subject has 30 days
to request a meeting and/or

submi t additional material to

explain, clarify, or r sol ve the
potential violations.
42 C.            R. Section 1004.            50.
Step 5 - Second meeting between

the PRO and the provider of

practitioner and/or review of

addi tional material submitted.

Step 6   - At the conclusion of the aDove process and following
consideration of all the information presented by provider or

practi tioner   if the PRO comes to the conclusion that a violation

has occurred which should be the subj ect of a sanction action by

the Department, it is required to send its recommendation for

impos i tion of a sa ction and a supporting report to the OIG for
independent review. The PRO must notify the individual or entity

that there is an additional opportunity to submit information

regarding the violations, and that this       ormation should be

sent to the         42 C.     OIG.
                           R. sections 1004. 60-80.

Step 7 - After reviewing the PRO I S recommendations and any
addi tional material submitted by the provider or practitioner,
the OIG must determine: (1) whether the statutory and regulatory
requirements have been complied                               with;
                                        (2) whether an adequate
legal and medical basis exists for imposing a              (3) the       sanction;
appropriate sanction to be imposed. The OIG can exercise one of
several options.                         It can:
                            (1) sustain the PRO I S recommendation
in its entirety; (2) alter the recommendation; or (3) rej ect the
recommendation. If OIG fails to act within 120 days, an ex­

clusion recommended by a PRO is automatically imposed.
The sanctions that the Secretary may 
 mpose on a provider or

practitioner following a PRO' s recommendation are either ex­

clusion from participation in the Medicare program or, in lieu of

exclusion, the imposition of a monetary penalty as a condition

for continued eligibility to receive reimbursement under the

Medicare program. 42 C. R. section 1004. 90.
 Step 8- A provider or practitioner who wishes to appeal the
imposition of a sanction has the right to a formal administrative

hearing in accordance with section 205(b) of the Act. (42 U.

 405(B). This hearing, conducted in accordance with specified
procedures (42 C. F. R.                     Part
                                               de novo , and the
                                                   405, Subpart 0), is

entire factual basis of the case is presented to a Departmental

administrative law judge                                    (ALJ). Each
                                       side may present evidence
and witnesses, and each has the right   o cross- examination. The

ALJ is required to issue a decision sustaining, modifying, or

dismissing the sanction , and setting forth findings of fact and

conclusions of       42 C.              law.
                             R. Section 498. 74.
Step 9 - Subsequent to the administrative hearing, review of the

ALJ decision by the Departmental Appeals Council may be
                    re-
quested. 42                     C.         R. Sections 498.        80-95.
Step 10 - After the Appeals Council renders a decision, a

provider or practitioner has a right to request judicial review


                                                           4 05 (g) .
of the Department' s decision, in accordance with Section 205(g)
of the Act, 4 2 U. S . C.
 (Source: Summary  taken from the transcript of Inspector General
Richard P. Kusserow I S testimony before The House Committee on
Government Operations, Human Resources and Intergovernmental

Relations Committee. October 20 , 1987.
                            APPENDIX VIII

                  SUMRY OF      RECENT PRO-RELATED
                         LEGISLATIVE PROVISIONS

     STATUS OF IMPLEMENTATION OF COBRA 1985 PROVISIONS

Assistants at Cataract Surqerv


          Provides that no Medicare payment may be made be made

          for assistant surgeon at cataract surgery unless

          carrier or PRO approves use of assistant before

          procedure is performed. Also prohibits physician from
          knowingly and willfully billing Medicare beneficiary if

          hej she has not obtained prior approval and where
          presence of assistant surgeon has been found to be

          unnecessary.
         Instructions for PRO review of this activity, effective

         with assistants proposed to be used after March 

         1987 were issued to PROs on December 30, 1986 and
         review has been implemented.
PRO Deniais for Substandard Care


         Provides for denial of payment when a PRO determines

         that the quality of health care services rendered to a

         Medicare beneficiary fails to meet professionally

         recognized standards of health      care.
                                                Also specifies
         that denials for care of substandard quality shall be

         made only on the basis of criteria which are consistent

         wi th guidelines established by the Secretary.

          Formal rUle-making process is being    followed.
                                                         Regula­
          tions are in the final stages of Departmental clearance

          and will be published soon.
PRO 100 Percent Preprocedure Review


         Requires peer review on a preadmissionjpreprocedure

         basis of non-emergency cases for at least 10 surgical

         procedures.  Second opinion will be required if PRO
         cannot make determination as to medical necessity of

          services.
         Formal rule- making process will be    followed.
                                                       Proposed
         regulations are still in process of Departmental

         clearance.
STATVS OF IHPI-EMENTATION OF OBRA 1986 PROVISIONS
     Review of services provided in hospital outpatient

     depa tments and ambulatory surqical centers   Effective
     for PRO contracts entered into or renewed on or after

     January 1, 1987.  This provision has been implemented
     by the Pennsylvania PRO, which entered a new contract

     period on July1, 1987. It   will be implemented by
     other PROs as they enter their next contract periods.
     Review of hospital denial notice    Implemented on

     December 1, 1986 , as required by the statute.
     FIs must provide PROs with "timel y" monthlY informa­
     tion, or hospitals will be recrired to provide such

     information directlY to the PROs    Effective April
     1987.
     Review of at least a sar,ple of readmissions occurrina
     within 31 days o: discharqe and any interveninq post­

     hospi tal care   Effective for contracts entered into or
     renewed on or after January    1, 1987.This provision
     has been impl emented by the Pennsylvania PRO and will
     be implemented by the other PROs as they enter their

     next contract periods.
     A reasonable p oportion of'   PRO funds must be allocated
     to revie\v   of quality of care p ovided in all settinas
     The HCFA has no plans for separate implementation of

     this provision. It will be implemented as part of

     other OBRA pr visions.

     Review of HMOs/CMPs     The HCFA published a listing of

     States to be competi ti vely bid in  theFederal Reqi ster
     on January 5,     1987.
                           RFP for those States was issued on
     March 9 , 1987. Review began July 1, 1987.


     The Secretary is to identify and make available to PROs

     methods of identifyinq those cases which are more

     likel y than others to be associated with substandard
     cral i ty of care, and to provide at least 12 PROs with
     data and data processinq assistance to perform small-

     area analvsis     Both provisions effective upon enact­
     ment.    The first is' an ongoing activity. The HCFA is
     planning to contract with the American Medical Review

     Research Center (AMC) for the small-area analysis
     which will utilize feedback from 12 pilot PROs.

     PRO boards must include at least one consumer

     representati ve     Effective with contracts entered into
     or renewed on or after January    1, 1987. Officially
           implemented with new contracts, but most PROs have

           already implemented this provision.


           PROs must respond to beneficiary complaints about poor

           quality care provided in all settinqs   Implemented
           October 1,          1987.
                             PROs had already been required to
           respond to complaints referred to them and will

           continue to do              so.
                               ClarifyinJ regulations in process.
           PROs will be required to share (when requested)

           information ' relatinq to substandard care with. State
           licensure or certification bodies and with national

           accreditinq bodies     Effective April 1, 1987. Clarify­
           ing regulations in process.
           Hospitals. home health aqencies. HMOs and skilled

           nursinq facilities will be required to have aqreements

           with PROs. under which costs of PRO review activities
           are to be paid bY the Secretary to the PRO   Effective
           October 1, 1987. Will be implemented by the PROs as
           they enter their next contract periods.
Source:   HCFA/HSQB/OMR .

     Other PRO-Reievant Leqislation


           The Medicare and Medicaid Patient Program Protection

           Act of 1987 greatly expanded the sanction and civil

           monetary penalty authorities under the Medicare and

           Medicaid program. The bill also required the reporting
           of all disciplinary actions made by State medical

           licensure boards.


           The recently enacted 1987 Omnibus Budget Reconciliation

           Act has made the following PRO changes:
                three- year            PRO contracts with staggered expiration
                dates ;
                a ban on informing Medicare beneficiaries of

                substandard quality payment denials before

                offering providers the 9Pportunity for recon­

                sideration;
                publication in the 
           Federal Reqister   of PRO work
                plans and evaluation techniques;


                a prohibition of automatic renewals of PRO

                contracts held by out-of state groups , provided
                in- state physician groups wish to compete;
                 a ban on physicians billing Medicare patients for

                 assigned claims denied for payment on grounds of

                 substandard quality;
                 a requirement that PROs give special consideration

                 to the needs of " remote rural areas" in setting

                 review standards;
                mandatory onsi te review at 20 percent of rural

                hospitals in a review   area;
                mandatory meetings several times a year between

                PROs and hospitals ' leadership;


                assessment of access provided to Medicare

                enrollees in risk-sharing HMOs and mandatory

                beneficiary outreach;


                 a provision encouraging PROs to use physician

                 specialists in initial review of psychiatric and

                 rehabilitation cases;


                demonstra ion proj ects assessing the educational
                value of video communications between academic

                medical centers and physicians treating patients

                in rural areas;


                administrative law hearings for rural physicians

                or hospitals facing PRO-initiated exclusions from

                Medicare; and

                 a report to Congress on the sanctions "due

                 process" reforms agreed to by HHS, the American

                 Medical Association, and the American Association

                 of Retired Persons.


Source:   Medical utilization Review , vol. 15 (no. 24),

December 24, ' 1987.
                                                        --




                                               APPENDIX IX
                                           Memorable "PRO-isms"
We appreciated the candor and thoughtfulness with which in-

di viduals responded to our questions about the PRO program. In
an effort to share more of those diverse opinions than could be

integrated into the main body of this report , we offer the

following examples of memorable opinions that we heard about the

PRO program (i. e. "PRO isms"
In regard to quality                     review:
     "It'   s like feeding the hungry
everyone agrees it is
     important, but no one wants to go down to the mission

     and do it" (from a PRO CEO) .

      Quali ty Review is carried out too much and too long on

     the written record.. . the Government came in with a ball
     and chain and a meat ax" (from a medical community

     representative)
In regard to the generic quality                      screens:
     "They t re         so good it'           s scary" (from a PRO medical
     director)
     "They' re so frustrating, they make me scream" (from a
     PRO medical director).

In regard to the PROs' upcoming review of care in nonhospital

settings:
     "They'     re invading the last bastion , of                 individuality"
      (from a state medical board representa                      ti ve) .
     "They will see us like a lynching squad in the

     communi ty and we will meet with hostility" (from a PRO

       board chair).
In , regard to heal th                   care in rural vs. urban   settings:
     "Just because you' re out in the sticks, doesn't mean

     you treat people differently" (from a PRO' CEO) .
     "You simply cannot practice the same medicin e in
     Muleshoe, Texas as Dallas, Texas. You can call that
     two-tier medicine or whatever you want" (from a medical

     community representative).

In regard to the use of   sanctions:
     It's important -to remember that most doctors are
    competent most of the time and all doctors are

    incompetent some of the time" (from a medical community

    representative)
     Once you get a sanction in doctors ' hands , their

    hearts and minds will follow" (from HCFA
    representative)
     "We have a moral obligation to underaccuse more than

    overaccuse" (from  a PRO medical director).
    "The only way to affect physicians is through their

    back pockets" (from a PRO board chair).

     "They (sanctions) make us the most hated group in the

    State. . . but they (physicians)
                                   read their mail now"
     (from a PRO staff person) .
                                                                                                                                                          q..




                                                                                                       AP!'rNO I x x



                                                                                        1IIIlf or Iii NI II II: 0111\ II V !lCml, NS:
                                                                       PUIClNT or fAIUJlllo !' AND (IINf IIiHI II PIIIIII fl1!i 11911/, uI9Irll
                                                                                     DV !iUIU. N AND CA!;t !.IIJOV 5 lIE



PRO
CASE  NUI0fR                         seliE: EN I             SCREEN 2             SCllffN 3        SOIf(N 4           sa:rfN 5         SCREEN
SHIOV                       REVI(I-(U        11 R(VI( O X fAILED X m:Vlfl-fO x FAHIIIY. R(VIHJI:O x H\IUOX HrVILI-EO x IAlllD;(                                                IIEVlfl-r.O x FAILEOr. REVIII-I:O 1. fAILED
SitE                          fAILED         PROnLEM5    fAILED   !'RllnLl"   fA H UII' IIOIILEI15 fAIL t UPIIOIIL r M!i f Allo EDPIIOm, EI1S                                   fAIU   IIl'lUmU   115


                    792        1..                 91..           31..           17.                       10.                      2...      1.3                     1..     23.
                    575                        100.                              JO.                I. I    '1.                     21.)            1!' 1.      2     7.      41.0
          124 b4i!                                 25.             1.1.          23.                                       1.2      57.                                1.2    33,
             . J02                             100.               17.            :11.                      31.J                     21.                                       40.
               140                                 75.            15.            1'1.               1.0    IO.            II. 7     3/..            I'I.
                    1.2'                           40.                           :12.                                      ,t - 5   42.             15.               ?. I    :n.
          171 . 0'rI          I?. 5                99.            11.0           21.5                                                         1.0                             JI.9
              I 4 , 3110                       100.               10.            19.                I. I     j.. 5                  JI. 7           i'?     . II       I. 7   J5.
            J . S02                            100.                                                 1.4     4. ()          '1. J              1.5         J. '1       1..     32.
          1b2 01'1                              71.                                                                        1.1.     1111.           15.               1.0 45.
              J 1     ,'1                      100.               10.            17.                       2:1.                     '111.                 b. 'I       1.. 27.
                    571                            '17             1..                              1.6                                       1.2                     3. '1   14.

TOTAL                        7J3, Ib3               4. I         97.                             22.        1.1          15.                42.                     11..             J2.


teE V
SCREEN I: A"equac  of d h;chuge p I.nni
SCREEN 2: Medical stability of patient .t discha

SCllf(N 3: Deaths
SCIIE(N 4: N050CO" i a I i"fee t ions
SCREEN 5: Un5chedule" retu n to su

SCREEN I.:         a suffe ed In the hospit.1
NOIE: . X Reviewed fai Ie"" is the pe centage of all re ds evip.wed that fai led the sc p.en.
           X failed P oblems . is the pe eentaqe of screen 'ailu es that He.e subsequently confi med
       as quality p oble"5.

Sou     ee:      UCFA/HSOH/OHR              Pee          Review O qanilations Dala Sum..uy. " July 1907.

                                                                                                                  " I

                               APPENDIX XI
                         HCFA, ASPE, AAP AND
                     COMMENTS ON THE DRAFT REPORT AND

                      OIG RESPONSES TO THE COMMENTS

We sent copies of the draft report to a wide array of entities

who participated in our PRO study and received comments from the

Administrator, Health ' Care Financing Administration, the
Assistant Secretary of Planning and Evaluation, the Acting

Executive Director, American Association of Retired Persons and

the Executive Vice President, American Hospital Association.

the sections that follow 1 we offer their comments , either
verbatim or in sumary form, and our responses to the comments
HCFA COMMENTS


The following are HCFA' s comments in full and our response to   it:
General Comments

We have reviewed OIG' s draft report regarding the effectiveness

and utilization of quality care reviews conducted by the peer

review organizations (PROs) and agree with its content. The
report accurately reflects problems already identified by our

Heal th   Standards and Quality Bureau (HSQB). Planned and
completed remedies, discussed by HSQB staff during the course of

their interviews with OIG staff, appear as recommendations in the

draft.
Our specific actions for each of the findings contained in the

report are attached for your consideration.
Specific Comments


Quali ty of Care:


A task force made up of PRO physicians and central and regional

office personnel has developed a model Quality Intervention Plan.
Its use will be mandated in the new Scope of Work which was

reviewed by OIG. This Plan prescribes the following quality
review procesa:
     Problem identification/timing of review

     Determination of source of problem

3.   Assignment of severity levels (The HCFA severity levels will
     be mandated.


     Notification of quality problems

    Quarterly profiling and weighted severity scores

    Quali ty   interventions
We have pilot studies and research efforts underway which   shoulc
assist us in assessing quality care in the future.
Generic Quality    Screens:
A task force was set up by HSQB and during the period September

through November 1987 , meetings were held to develop consistent

definitions for the hospital inpatient generic quality screens.
The task force was comprised of representatives from each HCFA

regional office , each PRO and centr l office staff. The revised
generic quality screens are included in the new Scope of Work.
We have solicited PROs to participate in several different pilot

studies.  The PROs will be asked to develop review methodologies
and submit to HCFA a study design which will include evaluation

criteria
Coordination with Other       Entities:
Al though we are restricted, by law as to the amount of information
we can share, we are attempting to remedy this situation. We

have a regulation in process that will relax restrictions and

provide for a larger exchange of information.
PROs' Outreach to Medicare       Beneficiaries:
The current PRO Scope of Work requires PROs to describe the

methods they use to implement programs such as hotlines

seminars , brochures I and consumer representation on PRO governing
bodies. We collected and reviewed each of the PROs' community

outreach plans and developed a model community outreach program.
This model is included in the new Scope of Work.
Review of Care in Nonhospi tal Settings:


In preparation for starting review of Intervening care between

hospi tal discharges , we worked with the PROs , as well as national

associations , in developing the review requirements.
We have been working to provide the data needed to link

outpatient and inpatient       care.
                                 HCFA has developed the Medicare
Automated Data Retrieval System (MADRS). The PRO is able to
electronically query this system. . The PRO will provide the two
hospi tal stay dates and the MADRS will ide tify any intervening

care.   This system is currently being used by the Pennsylvania
PRO. In addition , the HCFA demonstration proj ects , known as the
Common Work File (CWF), are being expanded. In addition to

combining the data from our carriers and intermediaries into

single files in Maryland and Texas , we will add additional

jurisdictions to those files in FY 1988. We are also taking

steps to assure that all Pa   A and Part B claims for

beneficiaries assigned to CWFs, regardless of which contractor in

the country actually processes the bills , are incorporated into

the CWF. This will provide complete Medicare history and permit
higher quality medical review. We are currently discussing how

the CWF might best support PRO review functions. We also have

plans to conduct several pilot studies to test alternatives for

reviewing care in nonhospital settings.
Other Comments


Fin lly, we would like to suggest that pages 48 and 49, C., Other
PRO-Relevant Legislation, be revised to incorporate the actual

legislative language.  Parts of this summary, which was prepared
by Medical Utilization Review , are misleading and should be

clarified.
orG Res"Oonse
We support the ini tiati
                       ves that HCFA has undertaken to address
issues raised in our report. However, we reiterate our

suggestion that HCFA "develop and widely disseminate information

on the full range of educational corrective action being taken by

the PROs to address quality of care problems.   It is important

for all relevant parties to know the breadth of activities other

than sanctioning, in which the PROs engage.
Furthermore, we would like to highlight the importance of HCFA

expedi tiously developing the confidentiality regulation referred
to in its comments. In addition, HCFA failed to address' whether
it is intending to 
reauire PROs to report instances of physician
misconduct or. incompetence to State medical licensure boards,
which HCFA first agreed to in March 1986 in a briefing on the OIG

report on medical licensure and   discipline. If the intention of
the PRO program is to protect Medicare beneficiaries from

substandard medical practice , it is imperative that the PROs be

given clear direction to maximize coordination with other review

enti ties, especially State medical licensure boards and hospital
quality assurance committees.
It is worth noting that, since HCFA responded to our draft

report, it has informed PROs that "the physician-specific quality

concern (i. e., one or more confirmed quality problems) may be

disclosed . by a PRO, with or without a specific request, to the
hospi tal where the service in, question was provided.   As with
the release of information to, medical licensure boards, we
believe that the PROs should:be   required to provide quality-
related information to hospitals and that HCFA should issue the

necessary regulations immediately. The PROs' confidentiality

restrictions have been a festering issue that is worthy of

immediate attention.


Finally, while we coremend HCFA I S efforts to develop a model
commu ity outreach plan, we agree with the AH I S suggestion that
HCFA clarify the purpose of the PROs ' community outreach efforts.
ASPE COH1-ENTS
The Assistant Secretary for Planning and Evaluation echoed HCFA' s
comments regarding the model community outreach program which

HCFA will be incorporating into the PROs' third scope of work.
In addition, ASPE suggested that we revise our report to in lude
reference to three quality-related studies that are currently

underway, which should help address concerns ti ted in our report
regarding the PROs I "failure to define and assess quality.


OIG Res'tonse
We appreciate ASPE I S suggestion and have added an endnote to our
report in order to inc ude re f erence to these three qual i ty­
related studies. However,  we would like to reiterate the
importance of HCFA collecting and disseminating the findings of

su=h research to the PROs so that they can integrate it into

their review approach. 

AARP COMHENTS

The following are 
   RP' s comments in full and our response to

them:
Thank you for the opportunity to comment on your draft report

entitled ' The Utilization and Quality Control Peer Review
Organization Program: Quality Review Activities. The
Association appreciates your leadership to safeguard quality in

the Medicare program. We share your view that quality assurance
is of maj or importance to the integrity of Medicare.

The Association is in general agreement with the content and

overallI sthrust of the report ' s recommendations. The draft
report findings and  I s
                         recommendations, if carried out, will
enhance the nation abili 4Y to understand quality medical care
and the role of the PROs in protecting    it.
More specif ically, tne Association agrees with the series of
recommendations that are aimed at bringing greater uniformity to

the quality review process. In this connection, the report I
f indings on page twelve with respect to generic quality screens
are particularly noteworthy. From a national perspective AAP
continues to believe that mandating the screens was an important

step forward in the evolution of quality of care review. At the
same time ,                 we endo se the observation that the screens themselves
are in need of ref inement                 and greater consistency in application.
Moreover, a better understanding of what constitutes quality and

how to measure and report it are critical elements of the

unfinished                  agenda.
                    PROs have a central role in the development
of the health care quality assurance system for this country.
PROs should be in the forefront of quali ty assuranc research
because they represent , the Nation' s commitment to quality in
medical care; a strategy of both strengthening PROs and holding

them increasingly accountable is obviously in the public

interest.
The Association commends the report I S recommendations that HCFA
promote closer working relationships between the PROs and other

heal th                particularly state medical , licensure
                  care entities

boards. In  an era of tight budgetary constraints the need to
coo dinate community services becomes even more important.
Better coordination is essential among bodies charged with

assuring that practitioners and providers of health care are

competent. Yet, with few exceptions, in most of the country,
professional societies, medical licensing boards, peer review

organizations, etc. , do virtually nothing to coordinate data
resources, analysis, monitoring, and enforcement responsibilities

on behalf of the                  public.
                           The Association believes that greater
coordination and communication between PROs and medical licensure

boards is essential to the development of an efficient quality

assurance system.
AAP would give greater prominence  to the recommendation that
HCFA improve the availability of data on outpatient and inpatient

services.  Parts A and B data must be linked so that policy
makers have a better understanding of an entire episode of

illness.  In addition, Medicare contractors must begin to use
common data processing systems  o that measures are consistent

and will yield comparisons of medical outcomes and provider

behavior.
The Association is optimistic about the development of small area

variation analysis as a tool for identifying both costs and

qual i ty problems in the health care               system.
                                             Small area vari ion
analysis is key to understanding both costs and quality in

medical care. Describing these variations creates new ways to

assess the delivery of medical                 care.
                                      Understanding the
variations in medical practice suggests opportunities for

reducing expenditures under Medicare and Medicaid without

reducing the benefits of medical                 care.
                                        Moreover, the variations
reveal the need to evaluate the outcomes of diffe ent approaches

to treatment so that patients and physicians can better

understand the significance of their choices in care.
Small area analysis of Medicare data begins this      year.
                                                         The
research should be a routine function of HCFA with the data

regularly reported to the    public.
                                   PROs will have an important
role in organizing the physician community to help explain, the
data and make judgments about what it means for both the costs

and quality of medical    care.
                              The Association, urges the OIG to
help promote this important new tool.
We note your expression of caution with respect to the extension

of PRO review to post-hospital settings. AARP strongly supported

the Congressional decision in 1986 to mandate such review, and we

continue to believe that the PRO mechanism is the best hope for

creating a system that assures quality across the continuum of

care. At  the same time we acknowledge the concerns regarding
untested review methodologies, data availabil i ty, and funding
constraints. The Association seeks to work with all interested

groups and HCFA to maintain the review direction and momentum

established in OBP.A ' , as well as a measured and sensible pace
of implementation.


wi th respect to PROs   I beneficiary outreach activi ties-- a
                                                          matter
of obvious interest and concern to AAP--we welcome your
highlighting the continued deficiencies in this area. We 

perceive a growing desire within PROs to work with the

benef iciary community to improve communication and understanding.
We will continue to do as much as possible to contribute ideas
and resources to this effort , as well as make the case for

increased contract funds earmarked for this important purpose.
AARP was pleased to have participated in the survey phase of this

proj ect both at the national and state levels. We greatly look
forward to reviewing your findings and recommendations in the

remaining areas of the    study.Thank you again for allowing the
Associat on to comment on your draft report.
OIG Res'Donse
We appreciate AARP I S support of the report, given its unique
perspective on the PRO program. We would like to clarify that in

our report the order of our recommendations to HCFA parallels the

order of the findings to which they     relate.  Hence, the fact that
our last recommendation relates to HCFA I S need to improve the
availabili ty of data , on; outpatient and inpatient services, is no
indication that we find it less important than other

recommendations. We have modified the format of our

recommendations in our executive summary to help clarify this

fact.
AHA Comments


The following are the AHA' s co                   ents in full:
On behalf of its nearly 6, 000 institutional members, the American

Hospi tal Association appreciates this opportunity to comment on

the draft report, " The Utilization and Quality Control Peer
Review Organization Program    Quality Review Activities , which

was prepared by the Inspector General' s Office of Analysis and

Inspections.   This report sets for itself a very important task--
assessment of PRO performance--which has not yet been publicly

attempted, It is particularly timely, given the increases in PRO

activity mandated by Congress in 1986, for HES to step back and

analyze the direction the program has taken and to evaluate its

real and potential impact.
We have reviewed the report carefully, and agree with many of

your recor.                endations.
                       However I while the report does identify
that there are differences among PROs, it provides little insight

into why those differences occur or whether the existence of

differences constitutes a problem in how the program functions.
Apparent differences in effectiveness and efficiency may be due

to differences in each PRO I S process of review , or they may be
due to basic inefficiencies in the overall program structure. We

offer some specific questions about the actual conduct of review

in the detailed co ents attached that might help to sort out the

sources of the differences among PROs. With respect to program
structure, HCFA may have condemned some PROs to inefficient and

ineffective review by creating basically uniform contracts and

structuring contract deli verables around anticipated provider
behavior rather than on problems in the area identified by the

PROs. We continue to feel that a great deal remains to be known
about what is the most effective and efficient way to structure

the PRO contracts and to conduct the review.
We also think it is important for HHS to give careful

consideration to the effectiveness of PRO interventions,
including sanctions, and to consider the extent   o which the

intervention is appropriate to the nature of the problem

identified by the PRO. . Education and consensus building may be

more effective and appropriate than sanctions if the ,problems
identified reflect a lack of knowledge of Medicare standards or

lack of clearcut standards of care within the medical community.
Finally, we believe it is important to consider the overall

effect of all PRO review , including utilization review , on the

quality of care provided to Medicare patients , not ;just on the

actual quality review efforts of the PROs. For example, what has
been the effect of the PRO priority to shift medical treatment

and surgery from an inpatient to an outpatient setting on the

heal th and safety of Medicare beneficiaries?              This is something

we do not know.
We look forward to future OIG reports which , we hope, will

address some of the issued we have raised
comments will provide some useful perspective.
                                                       here.
                                                  We hope these

In order to make the following comments easier to follow , they

have been organized in  o two sections: first, general remarks
about the purpose and methodology of the study and comments

relating to the bac :ground discussion, and second , comments on

specific findings.   For ease of reference , we have for the most
part used the subheadings that appear in the report.
The purpose of the study

Our chief concern has to do with the limited extent to which the

research actually addresses the broad purpose announced at the

beginning of the                  report.
                           The research is intended to " assess the
performance" of the PRO program and to " promote a better

understanding of the PRO I S miss ion and acti vi ties" Al though
many of the report' s findings and recommendations seem quite

reasonable , the research does not really address the outcomes of
review and does not analyze differences in PRO review methods or

interventions.   The discussion of the PROs I quality review and
intervention procedures on pp. 6-7 is not              adequate.
                                                        The analysis
necessary t judge what makes some PROs more effective than
others with respect to both their quality review processes and

their chosen intervention strategies is simply not there.
As your review of the data reported by PROs on the use of generic

quali ty screening shows, there is wide variation not only in the
level of referrals to physicians for review but in the number of

confirmed problems. This variation should lead to questions

about what the PROs ' do differently to yield such different
resul ts. For example:

        What kind of training dO .            they provide to the nurse
        reviewers?
        Do they vary in the level of instructions they give to

        the nurse reviewers who. perform the initial screening of
        cases?
        Do they vary in the extent to which they build a

        consensus for the standards of care among their physician

        reviewers?
        Do they vary in their 
             se of specialists to conduct the

        physician review?

         Is a final decision about the quality of services made on

         the basis of a single physician s judgment , or is the

         physician reviewer I s opinion bolstered by a second
         physician review , or by a quality committee review?

         Wha          sort of system does the PRO have--telephone , or
         mail ?--to' allow discussion to take place between the

         attending and reviewing physicians? Do the PROs vary in
         the way they perceive these discussions?

         What sort, ofinterventions have been tried?               Have some
         been tried and failed?
These questions were not . asked. As a consequence , the report
identifies that there are differences between PROs but provides

no insights on why those differences occur or whether the

existence of differences constitutes a problem in how the progra


                                        conducted.
functions--ei ther in how the contracts are structured or how the

review is actually
The report mentions in passing (at the bottom of page 1) that

subse  ent reports will focus on the
  ROs' sanction process, on
their ovetall activities and effectiveness , and on the HCFA

oversight of the program. How does the current report fit in?
Is it intended as background                 only?
                                     Clearly a report on " overall
activities and effectiveness" would come closer to answering the

questions we would have you                 ask.
                                   But if you would defer these
questions to future reports, the langua e you use to describe the

current proj ect is inaccurate and should be changed.
If an overall assessment of PRO performance is contemplated , we

would make two other general suggestions. First, it should

address both the results and the processes of               review.
                                                        As with
any kind of quality evaluation, whether of hospital performance

or of PRO performance, outcomes should not be evaluated without

looking at the processes                  involved.
                                    Observed differences in
outcome must be accompanied by an evaluation of differences in

process if they are going to deepen our understanding of what

needs to be done differently to achieve better results.
Second , an evaluation of the results of PRO review should i clude
not ' only a comparative assessment of the number of PRO findings
of quality problems, but an evaluation of their appropriateness.
In addition, if HHS really wants to assess the impact of PROs on

the quality of care provided to Medicare beneficiaries, it must

consider the effect of PRO utilization                review: is
                                                    the shift from
inpatient to outpatient services always safe and' effective? Is
it better for the Medicare beneficiary?

                                  p. 



The studv ' s methods
A study' s methods 1 imi t
drawn from ,      it.
                 Because
                        the concl us ions that can 1 eg i tima tely be
                        this study relies most heavily on
interviews to evaluate the program, several of its findings

              perceptions of PRO performance rather than PRO
reflect broad 


performance i tsel      f.
In several places , th language used to summarize the results of

the research somewhat overstates the     findings. For example , the
study concludes , in its first finding, that " quality review is
the most critical element of the PROs I mission and has received
increased emphasis during the second contract period.       It is

certainly true that quality review has been given more emphasis

in the second contract period , as shown by a comparison of the

two scopes of       work.
                       But the research shows that quality is
perce i ved as the most important function, not that qual i ty review
   the most critical element of the PROs' mission. Our
perception is that quality has received more emphasis in the

second contract period, but that the PRO workload
predominantly concsrned with utilization    review.
                                                      is still
                                                     Therefore, it
is questionable y.'hether it can justly be said that "  quality"
the most important function of the PRO program.
Similarly, in its analysis of the generic quality screens, the

"finding" is that the generic screens are useful, but are in need

of refinement in that they produce excessive referrals to

physicians and may be inconsistently     applied.
                                                While this may
well be true , the research merely shows that this is the way the
screens are perceived by' PRO executive directors and others
interviewed.   This is our perception as   well.But it would be
nice to see these perceptions reinforced by some evidence.
Creation of the PRO Proqram

In the historical discussion on    2, you suggest that the PRO

program was created simultaneously with the PPS. Al though it is
true that the PRO program might not have been implemented without

the implementation of PPS, the PRO program was conceived and

legislated as an administrative reform six months before PPS was

passed in March 1983.
The PRO reforms were introduced with TEFRA in September 1982.
The PRO reforms streamlined program administration by creating

statewide organizations and enhanced their accountability to HCFA

by moving from a grant structure to perfo ance-based contracts.
The PPS legislation, passed in March 1983, gave a particular

focus to PRO review , based on the fear that ' such a sig ificant
shift in provider payment might result in incentives to

compromise the Medicare program in new    ways.  Quality review had
always and continues to be concerned with poor "technical"
qual i ty. In addition , under cost-based per-diem payment, concern

             p. 


focused on the quality implications of providing too many

services; under PPS, a per case payment system, the quality

concern shifted to the potential underprovision of services.
The initial scope of work I as you point out
                                             I was based on HCFA'

anticipation that under PPS , Medicare expenditures  were

vulnerable to provider attempts to increase revenues by

manipulating  admissions.
for reductions of nearly 1.The first contracts therefore called
                            25 million admissions, nearly half of
which were to be shifted from inpatient to outpatient care.
During the second and third years of PPS, as length of stay

declined , congressional interest turned  to a perceived problem of
 premature discharge" , and the budget bills passed in . 1986
contained several provisions enhancing PRO review of this aspect

of quality of  care.  In the meantime , HCFA was preparing the
scope of work for the 1986-1988 contracts. Admissions had begun

to decline before PPS was implemented and continued to drop

sharply despite the analysts I expectations that the opposite
would happen in response to  PPS.  Consequently, HCFA apparently
fel t it could reduce the level of review of utilization problems

in the 1986-88 contracts and shift some of its focus to "

concerns.                                                   quality"
This historical overv' ievl raises an issue important to
understanding the program: to what extent are the PRO contracts
structured around problems identified by the PROs in the course

of their review or through original research? To what extent

the structure of the review system dictated by hypotheses about

the effect of the financing system on hospital behavior?
sensitive has the program been to the political climate? And how

point out on                                               As you

                 6, HCFA has had to respond to a variety of

competing pressures in implementing this program.
HCFA was forced to put a great deal of emphasis on the review of

 premature discharge" , because there was a growing public
perception that this was becoming a problem under   PPS.
sponsored research by several PROs found that the actual Yet   HCFA-
                                                           level  of

premature discharge is quite small. We understand that

forthcoming research by the OIG confirms this view. ' It remains

to be seen whether this research will lead to significant    change

in future PRO contracts or ' whether the contracts will continue to
be driven by the potential for problems under prospective
even though that potential has not been realized.           'payment

An examination of this issue might demonstrate that the PRO

program could be more effective and efficient if the PRO

contracts were based more on identifying and resolving local

problems than on testing perceptions about provider behavior.
One of the great advantages of the contract structure created by

the statute is the flexibility it gives HCFA to adapt each

contract to the problems found in each  state. What has been
implemented, by contrast , is a very uniform program. 

                                                 p. 



   cognize that such uniformity has its advantages--for example

 in the consistency of information             HCFA may believe
 that it has sacrificed the principle of local determination for

                                                                       generated.
 more efficient program administration and greater programmatic

 consistency        in fact, the choice to create a uniform

                                  when

 contract may lead to much wasted effort and a less effective

program.
The Sanction Process


As mentioned in your description of the sanction process on p. 7

sanctions are issued for violations of the provider' s obligations

to provide services which are (a) medically reasonable and
appropr ia             te;        (b) provided economically
                                                                               and (c) of appropriate
quali ty. The appropriateness of a sanction thus hinges on the

appropriateness of the determination that a violation of these

obligations exists.
Is it appropriate for a sanction to be issued if there was no

willful attempt to provide inappropriate care or to circumvent
PPS?                        like all penal ties , serves not only
               The sanction process

as retribution for an inappropriate action but as a deterrent to

all those who might contemplate such             But one might
wonder whether it is appropriate to sanction someone whose

                                                                         actions.
actions are unknowingly                                       inappropriate.
                                         Certainly it is true that
sanctions will not have a deterrent effect on anyone who is not

willfully engaged in wrongdoing.

If the PROs are enforcing standards of care that all physicians

and hospitals know beforehand 

                                 then penal ties for failure to

conform to those standards might be                  But if the PROs
are enforcing standards which are controversial, or which are

                                                                        appropriate.
different than those that prevail in the community, then the

appropriate step is education and consensus development
sanction.                                                 , not

            HFCA repeatedly assures the provider and practitioner
communi ties that PROs are not attempting to change standards of

practice.   Let us assure you , this is not the way the PROs are
perceived by providers. In its regulations governing the

program, HCFA requires the PROs to use national criteria, norms

and standards rather than local standards, unlike the statute,
whose emphasis is precisely the reverse      This emphasis of

national over local" criteria and norms would likely be confirmed
by an analysis of the criteria sets used by PROs to ' col1duct
review.
Finally, as a factual matter, the statute allows for both

monetary and exclusion sanctions , but does not allow monetary

sanctions to be imposed for documentation
to be sorted out on 

                                                        This needs              violations.
                                                       ). 


                               FINDINGS
Im= ovement in Oual itv Sc eens and the Process of Review

The discussion (p. 12-14) of the adequacy of the generic quality

screens is misleading, since the research attempts to identify

perceptions: of their effectiveness rather than to establish just

how sensitive (how well the screens correctlY identify problems)

and specific (to what extent the screens incorrectly identify as

problems cases which are not problems ) the screens are.

The comparison of screen failure and confirmed problem

identification is particularly confused. The questions you need

to address are' (a) whether the screens allow quality problems to

escape notice 
 and (b) whether the cases they identify are truly
problematic. It has been well known that one of the biggest

problems with the screens was the large number of unnecessary

referrals to physician review (" false posi ti ves"  The American

Medical Peer Review Association has made many suggestions for

refinements to the screens that make them more accurate , and HCFA

has adopted many of these suggestions.
There a=e two potential sources of    variation: first
of d scretion granted to the nurse reviewer to identify

                                                             , the amount
   potential" problems 
      second, the judgment of the reviewing

physician in confirming true problem      cases.     One PRO may refer
few cases to physician review , but, the ones referred may be the

right cases (i. e.       , the ones reflecting real quality problems) .
Another PRO may refer many cases to physician review , but confirm

problems in only a small   portion.        The two may identify the same
percentage of confirmed . cases in relation to overall cases
reviewed, so the first         PRO would appear to use the screens more

efficiently than the second., You have (a) defined the percentage

of confirmed cases in relation to screen failures rather than

cases reviewed; and (b) expressed these as ranges without
attempting to establish the relationship, if any exists, between

screen failures and confirmed    problems.       The comparison of screen
failuras to confirmed cases as presented here is therefore not

meaningful.
To truly assess the differences among PROs in the use of the

screens , you . have to investigate precisely how they conduct the
initial screening and the   final  deci.sions. How much instruction
do the PROs give the initial reviewer? How many physicians

review a case to determine whether a confirmed prqblem exists?

Do the PROs use specialists in a related field of medicine to

make these determinations? The answers to these questions could

provide useful , insights- into just how effective and appropriate
the generic screens would be as' the   basis for the
                                                         quality
                                                        PRO
review process. You point out in the discussion on pp. 17-18

that there is wide variation among PROs in their review processes

and approaches tn r   vi     but without any detail comparing the
differences in process to differences in result, it is difficult

to say just what this shows about PRO performance.
The Definition of Oualitv and the Technolocry of Ouality Review
The report concludes that PRO quality review is limited by a

"lack of consens s regarding the definition of quality medical

care" , by the lack of available resources to provide such care
and by lack of sophisticated technology to assess
conclusions are widely ' perceived to be true.       quality.
                                               However, this
                                                             These
discussion, which covers very broad territory in a mere four

paragraphs, contains an alarming confusion of key concepts.
First, it is certainly true that quality is multifarious, that

  , that no single element will capture all the dimensions of

quali ty. While it might be useful for HCFA to consider what

purposes--whose interests--they hope to serve in doing this

review , it is not at all clear that this is a particular handicap

to the PROs.    The PRO uali ty review function has been limited to
determining whether a particular course of treatment can be

considered to meet appropriate standards of quality"      The real

handicap the PROs face is the lack of definition at the " micro"
level -lack of consensus on what consti tutes quality care in the
individual instance--because these " appropriate standards" are

not articulated.
Second, in discussing qual i ty measurement , the report suggests
that PRO access to seve rty of illness measures and

 sophisticated quality assurance techniques" would eliminate some

of the current labor- intens i ve, .case-by- case review process.
This is only partially true. These techniques can prove useful

for more eff icient screening to select cases for   review.    The
generic quality screens require extensive chart review in the

screening process, which is , indeed , time consuming. But there
is no magic to the use of statistical techniques or a severity of

illness mea    ure. In theend, the basis, of PRO quality assessment
must remain the detailed review of medical records, because it

only by looking at the medical record that a judgment can be made

about whether the care provided a particular patient was

appropriate.
Relationships between PROs   and: other Health Care Entities
The study rated the PRO CEO' s perceptions of the effectiveness of

the PRO I S relationship with other state health care
organizations , including state medical licensure boards, hospital
associations, and medical societies, and found that PROs

generally believe their relationships with hospital associations

and medical societies are    good. While interesting observations
the interviews revealed two issues of importance to hospitals and

physicians which didn t appear in the findings summary, but which
are well worth pursuing.

wi th  regard to hospitals I the PROs reported that hospitals had
been troubled by the PROs I unwillingness to share information
about particular physicians who had been identified as having

qual i ty probl ems. This has become an enormous ly important issue
for hospitals.


HCFA argues that current regulations prohibit PROs from

identifying physicians with ' confirmed quality problems to their
hospital medical staffs. PRO regulations at Sec. 476. 133 allow

disclosure to an institution of information about its physicians

only "to the extent that the information displays practice or

performance patterns " of the physician within the hospital. HCFA
contends that confirmation of a quality problem does not

constitute " patterns " of performance, and therefore cannot be
disclosed to the hospital. The institution is therefore notif ied
only if the problem is so severe that a sanction recommendation

is forwarded to the OIG or I indirectly, the PRO undertakes

intensified revie of the physician. Yet without proper

notification, the hospital medical staff can not implement

internal meas res necessary to address the physician I s practice
proble!:..
The AHA has recommended that HCFA change these regulations to

allow PROs to notify the hospital' s medical staff whenever it

discovers a quality problem with physician practice.
Better coordination with State medical review boards is certainly

important when the PRO uncovers egregious quality problems that

threaten the public health and    safety.But it is equally
important that PRO intervention begin early, while it is still

possible  o effect some change in practice I before invoking an

investigation by the medical license boards.
Beneficiary Outreach

OIG found that PROs have trouble providing effective outreach to

Medicare beneficiaries. This observation is not surprising given

HCFA' s failure to define what the purpose of this outreach
supposed to  be.  Is the outreach supposed to improve beneficiary
understanding of Medicare coverage? Or  increase beneficiary
awareness of. appeals mechanismfor lodging a protest of a
hospital notice of noncoverage? Or some other purpose? ' The OIG
recommendation--that HCFA seek ways to strengthen beneficiary

outreach efforts--should be made more  specific: the best way for
HCFA to strengthen PRO outreach programs is to clarify their

purpose.
Review of Non-hospi tal Car


The study concludes , after interviewing HCFA staff and others

that the maj or obstacles to review of non-hospital settings will

include lack of data, inadequate review technology, lack of
Second , consider whether PRO effectiveness and efficiency might
be enhanced by making the structure of the review program conform

more to local problems as determined by the PRO than by

assumptions about provider behavior based on an analysis of the

payment system.
Thirdj in evaluating differen es in PRO effectiveness, consider

both the level of effect and the appropriateness of the effect.
It is important to look at the overall effect of all PRO review,
including utilization review , on the quality of care provided to

Medicare beneficiaries , not just on the actual quality review

efforts of the PROs.
Finally, in evaluating PRO effectiveness, consider the range of

al ternati ve interventions at the PROs I disposal, and assess
whether the interventions--including sanctions--are appropriately

geared to the level of the problem identified.
O!G Response:

We appreciate the time and effort that the AHA put into crafting

its detailed and thoughtful response to our draft     report.
                                                           The
AHA has raised several important issues about the PRO program

that are worthy of further 
xploration by both HCFA and other

entities like ourselves.
In regard to the concerns raised about our   study'  methodological
limitations, it is worth noting that although our assessment of

the PRO program is based primarily on interviews with a wide

variety of well-informed individuals closely associated with the

PROs, wherever possible , we have' supplemented our analysis of

this qualitative date with available quantitative data.
Unfortunately, as reflected in our third PRO inspection report,
the limitations of available data hampered our ability to draw

def ini ti ve concl us ions about PRO effectiveness.
In response to legitimate methodological and format concerns

raised by AHA, we have reworded our first two findings and

al tered the presentation of recommendations in the executive
summary to correspond with the groupings in the text. We have
also changed our introduction to better reflect the

methodological limitations of the ' study, and to clarify how our
three inspection reports fit   together.  In addition, we have
included AHA I s historical and sanction clarifications in the
appropriate parts of the PRO background section of our report.
As reflected in our response to HCFA' s comments , we also agreed
wi th AH I S suggestions: that HCFA clarify the' purpose of community
outreach and facili tat' the PRO. 5 release of quality-related
information to hospitals. Furthermore , AH' s concerns about the
prescriptive nature of the PRO contracts are addressed in our

third PRO inspection report    entitled:  "The Utilization and
Quality Control Peer Review Organization (PRO) Program:
                          ss"
Exploration of Effectivene.   (OAI-01-88-00572).
Finally, while we appreciate AH' s careful criticism of our

report and support of our recommendations, we take exception with

its assessment that our PRO inspection fails in any meaningful

way to assess PRO performance.   We believe that the three

reports of this inspection provide more evaluative information

about the PRO program than any other entity has compiled to date.
